<html>
<title> - H.R. 6060, ENDANGERED FISH RECOVERY PROGRAMS EXTENSION ACT OF 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                      H.R. 6060, ENDANGERED FISH
                           RECOVERY PROGRAMS
                         EXTENSION ACT OF 2012

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, July 10, 2012

                               __________

                           Serial No. 112-119

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
75-009                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2542554a65465056514d4049550b464a480b">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
           GRACE F. NAPOLITANO, CA, Ranking Democratic Member

Louie Gohmert, TX                    Jim Costa, CA
Jeff Denham, CA                      Ben Ray Lujan, NM
Scott R. Tipton, CO                  John Garamendi, CA
Paul A. Gosar, AZ                    Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio



                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 10, 2012...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     5
    Gardner, Hon. Cory, a Representative in Congress from the 
      State of Colorado..........................................     6
        Prepared statement of....................................     7
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3
        Prepared statement of....................................     4
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     7
        Prepared statement of....................................     8

Statement of Witnesses:
    Garlick, Kevin, Energy Director, Provo City Power, Provo, 
      Utah.......................................................    13
        Prepared statement of....................................    14
    Kirkpatrick, L. Randy, Executive Director, San Juan Water 
      Commission, Farmington, New Mexico.........................    20
        Prepared statement of....................................    21
    Payne, Grayford F., Deputy Commissioner for Policy, 
      Administration and Budget, Bureau of Reclamation, U.S. 
      Department of the Interior, Washington, D.C................    17
        Prepared statement of....................................    18
    Raley, Bennett W., Counsel, Northern Colorado Water 
      Conservancy District, Berthoud, Colorado...................    10
        Prepared statement of....................................    11
    Shields, John W., Interstate Streams Engineer, Wyoming State 
      Engineer's Office, Cheyenne, Wyoming.......................    25
        Prepared statement of....................................    26

Additional materials supplied:
    Kuhn, R. Eric, General Manager, Colorado River District. 
      Letter submitted for the record by The Honorable Scott 
      Tipton.....................................................     9
    List of documents retained in the Committee's official files.    36
                                     



    LEGISLATIVE HEARING ON H.R. 6060, TO AMEND PUBLIC LAW 106-392 TO 
 MAINTAIN ANNUAL BASE FUNDING FOR THE UPPER COLORADO AND SAN JUAN FISH 
RECOVERY PROGRAMS THROUGH FISCAL YEAR 2019. ``ENDANGERED FISH RECOVERY 
                   PROGRAMS EXTENSION ACT OF 2012.''

                              ----------                              


                         Tuesday, July 10, 2012

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:59 p.m., in 
Room 1334, Longworth House Office Building, Hon. Tom McClintock 
[chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Tipton, Noem; 
Napolitano, and Lujan.
    Mr. McClintock. The Committee will come to order. The bad 
news is that we are an hour late. And for that I sincerely 
apologize to all concerned. The good news is we are now not 
going to be interrupted by votes. So we can go through from 
beginning to end, I think, without interruption.
    We are meeting today to hear testimony on H.R. 6060, the 
Endangered Fish Recovery Programs Extension Act of 2012. Before 
we proceed further, I would ask unanimous consent that Mr. 
Bishop of Utah and Mr. Gardner be allowed to sit with the 
Subcommittee and participate in the hearing.
    [No response.]
    Mr. McClintock. Hearing no objection, so ordered. We will 
begin with five-minute opening statements by myself and the 
Ranking Subcommittee Member. And with that, we will start the 
timer.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. As I said, we have before us H.R. 6060 by 
Congressman Bishop. He is joined by a bipartisan group of 
cosponsors in the affected States. The bill extends a 
cooperative program affecting the Upper Colorado and San Juan 
River Basins making it possible for local water and power 
authorities to deal with the Endangered Species Act, while at 
the same time continuing operations that serve more than 2,300 
water and power projects in a 5-State region.
    The Colorado River Storage Project is absolutely vital for 
the economies of Wyoming, Utah, Colorado, Arizona, and New 
Mexico. And yet the project operates under a sort of Damocles, 
the threat of litigation or regulatory excess under the 
Endangered Species Act that could catastrophically impact these 
projects.
    The 106th Congress enacted legislation to allow for a 
cooperative agreement between the non-Federal water and power 
agencies, the affected States, and the Federal Government to 
manage these conflicts and bring some common-sense reforms to 
the administration of the Endangered Species Act as it applies 
to the CRSP and other projects. Chief among these reforms is to 
allow hatchery fish to be counted in the fish restoration 
program, a sensible and cost-effective option that is denied in 
many other areas.
    For example, in the Klamath Region, in my district, 
continued efforts are being made to tear down four perfectly 
good hydroelectric dams capable of generating 155 megawatts of 
hydroelectricity in the name of boosting salmon populations. 
But the Iron Gate Fish Hatchery on the Klamath is producing 
burgeoning salmon populations--5 million salmon each year, 
17,000 of which return as fully grown adults to spawn. But they 
are not allowed to be counted for ESA compliance. And if the 
dams are removed, the Iron Gate Fish Hatchery can no longer 
operate, and then you have a catastrophic plunge in the salmon 
populations on the Klamath.
    It is this sort of environmental radicalism that the 
cooperative agreement here was able to suppress, and has been 
renewed and augmented in the 109th and 111th Congresses. 
Specifically, H.R. 6060 would continue authorization of this 
agreement for the maximum 7 years permitted under House 
protocols, the central feature of which is to continue the 
cost-sharing arrangements between Federal and non-Federal 
agencies, with the non-Federal portion paid by rate-payers who 
benefit from these facilities.
    The action of the 106th Congress, however, double-counted 
local revenues as both funding for fish recovery and, at the 
same time, for CRSP loan repayments. Continuing this 
arrangement amounts to a Federal match of the Federal match, 
adding about $3.5 million a year of red ink to the deficit. The 
Congressional Budget Office has flagged this provision. And, 
under the pay-go rules of the House, it will have to be offset 
by other cost savings when it is brought to the Floor.
    Assuming this infirmity can be corrected, the measure adds 
important reforms that were notably absent with the House last 
visited this issue. It does not ask for Federal appropriations 
to pay for the program. It keeps bureaucrats from spending 
taxpayer money to lobby on this program. It reduces unnecessary 
and duplicative overhead, so that more money can be devoted to 
fish recovery. And, most importantly, it provides a sunset and 
long-overdue transparency and accountability. In short, this 
bill requires results, and I commend Congressman Bishop for his 
leadership. This and future congresses still have a lot of work 
to do on reforming the Endangered Species Act. But, in the 
meantime, this legislation offers some common-sense solutions. 
With that, I yield back the balance of my time and recognize 
the Ranking Member, Mrs. Napolitano, for five minutes.
    [The prepared statement of Mr. McClintock follows:]

         Statement of The Honorable Tom McClintock, Chairman, 
                    Subcommittee on Water and Power

    We have before us today H.R. 6060 by Congressman Bishop, joined by 
a bi-partisan group of co-sponsors in the affected states. The bill 
extends a cooperative program affecting the Upper Colorado and San Juan 
River Basins, making it possible for local water and power authorities 
to deal with the Endangered Species Act while at the same time 
continuing operations that serve more than 2,300 water and power 
projects in a five state region.
    The Colorado River Storage Project is absolutely vital for the 
economies of Wyoming, Utah, Colorado, Arizona and New Mexico, and yet 
the project operates under a sword of Damocles: the threat of 
litigation or regulatory excess under the Endangered Species Act that 
could catastrophically impact these projects.
    The 106th Congress enacted legislation to allow for a cooperative 
agreement between the non-federal water and power agencies, the 
affected States and the federal government to manage these conflicts, 
and bring some common sense reforms to the administration of the 
Endangered Species Act as it applies to the CRSP and other projects.
    Chief among these reforms is to allow hatchery fish to be counted 
in the fish restoration program, a sensible and cost-effective option 
that is denied in other areas. In the Klamath Region in my district, 
for example, continued efforts are being made to tear down four 
perfectly good hydro-electric dams capable of generating 155 megawatts 
of hydro-electricity in the name of boosting salmon populations.
    The Iron Gate fish hatchery on the Klamath produces 5 million 
salmon smolts each year, 17,000 of which return as fully grown adults 
to spawn--but they are not allowed to be counted for ESA compliance. 
And if the dams are removed, the Iron Gate Fish hatchery can no longer 
operate.
    It is this sort of environmental radicalism that the cooperative 
agreement was able to suppress, and it has been renewed and augmented 
in the 109th and 111th Congresses.
    Specifically, H.R. 6060 would continue authorization of this 
agreement for the maximum seven years permitted under House Republican 
protocols (note: this is a Republican leadership rule, not a House 
rule), the central feature of which is to continue the cost-sharing 
arrangements between federal and non-federal agencies, with the non-
federal portion paid by ratepayers who benefit from these facilities.
    The action of the 106th Congress, however, double-counted local 
revenues as both funding for fish recovery and at the same time for 
CRSP loan repayments. Continuing this arrangement amounts to a federal 
match of the federal match, adding $3 1/2 million a year of red ink to 
the deficit. The Congressional Budget Office has flagged this 
provision. Under the pay-go rules of the House, it will have to be 
offset by other cost-savings if and when it is brought to the floor.
    Assuming this infirmity can be corrected, the measure adds 
important reforms that were notably absent when the House last visited 
this issue:
        <bullet>  It does not ask for federal appropriations to pay for 
        this program
        <bullet>  It keeps bureaucrats from spending taxpayer money to 
        lobby on this program
        <bullet>  It reduces unnecessary and duplicative overhead so 
        that more money can be devoted to fish recovery
        <bullet>  Most importantly, it provides a sunset and long 
        overdue transparency
    In short, this bill requires results and I commend Congressman 
Bishop for his leadership.
    This and future Congresses still have a lot of work to do on 
reforming the Endangered Species Act, but in the meantime this 
legislation offers some common-sense solutions.
                                 ______
                                 

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman. And, by the way, 
happy birthday.
    As the Chairman stated, H.R. 6060 authorizes the use of 
power revenues as base funding for the two recovery programs in 
the Upper Colorado and the San Juan Rivers. We support the 
intent of this legislation to recover listed species, while 
allowing for water and power operations, which is a win-win for 
all. We support the Administration's position and commitment to 
the continuation of these programs, and welcome the Majority's 
recognition that compliance with the Endangered Species Act 
doesn't mean that water and power projects in the West must go 
dry or go dark.
    As we hear from the witnesses today--and thank you for 
being here, all of you--the Upper Colorado River Endangered 
Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program have the dual goals of recovering 
populations of endangered fish while providing ESA compliance 
for 2,320 water projects. These projects deliver more than 3.7 
million acre-feet per year in the States, as recognized: 
Wyoming, Utah, Colorado, and New Mexico. It is also important 
to note that no lawsuits have been filed on the ESA compliance 
for any of these water projects.
    The need for the programs is clear. And a hearing on this 
legislation is very welcomed. We do, however, have some 
concerns regarding the legislation itself. Per Republican 
Rules, H.R. 6060 only extends the authorization for the 
programs until 2019, conflicting with the program's recovery 
goal date of 2023. This date has been recognized in prior 
versions of this bill during three consecutive sessions of 
Congress, and reflected in the Tribal, State, and local 
agreements.
    We are also concerned about the limited time left in this 
Congress to enact this legislation into law. We recognize 
reclamation may already have the authorization to utilize power 
revenues specifically for these programs. While we would 
welcome this clarification through H.R. 6060, we also believe 
that the programs should not come to a halt because of the 
question of reclamation's existing authorities and this 
Congress's inability to act.
    We are also disappointed that H.R. 2064, the Hydro 2.0 Act, 
sponsored by Ranking Member Markey and myself was not scheduled 
for a hearing. We hope that we will be soon. And we look 
forward to working with my colleagues on a schedule for the 
future.
    Again, welcome to the witnesses, and yield back the balance 
of my time.
    [The prepared statement of Mrs. Napolitano follows:]

    Statement of The Honorable Grace F. Napolitano, Ranking Member, 
                    Subcommittee on Water and Power

    Thank you Mr. Chairman.
    As the Chairman stated H.R. 6060, authorizes the use of power 
revenues as base funding for two recovery programs in the Upper 
Colorado and San Juan Rivers. We support the intent of H.R. 6060: to 
recover listed species while allowing for water and power operations. 
We support the Administration's position and commitment to these 
programs. We also welcome the Majority's better-late-than-never 
recognition that compliance with the endangered species act does not 
mean that water and power projects in the west must go dry or go dark.
    As we will hear from the witnesses today, the Upper Colorado River 
Endangered Fish Recovery Program and San Juan River Basin Recovery 
Implementation Program have the dual goals of recovering populations of 
endangered fish while providing ESA compliance for 2,320 water 
projects. These projects deliver more than 3.7 million acre-feet per 
year in the states of Wyoming, Utah, Colorado and New Mexico.
    It is also important to note that no lawsuits have been filed on 
ESA compliance for any of these water projects.
    The need for these programs is clear and a hearing on this 
legislation is welcomed. We do however have some concerns regarding the 
legislation. Per Republican rules, H.R. 6060 only extends the 
authorization for the programs until 2019, conflicting with the 
Program's recovery goals date of 2023. This date has been recognized in 
prior versions of this bill during three consecutive sessions of 
Congress and reflected in tribal, state and local agreements.
    We are also concerned about the limited time left this Congress to 
enact this legislation into law. We recognize that Reclamation may 
already have the authorization to utilize power revenues specifically 
for these programs. While we would welcome this clarification through 
H.R. 6060, we also believe that the program should not come to a halt 
because of a question of Reclamation's existing authorities and this 
Congress's inability to act.
    We were also disappointed that H.R. 6024, the Hydro 2.0 Act 
sponsored by Ranking Member Markey and myself, was not scheduled for 
this hearing. We look forward to working with my colleagues on schedule 
for the future. Welcome to our witnesses today. Yield back the balance 
of my time.
                                 ______
                                 
    Mr. McClintock. Thank you.
    The Chair next recognizes the sponsor of the measure, Mr. 
Bishop of Utah.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman, Ranking Member. Let me 
just do a couple of things in housekeeping at the very 
beginning of this. I want to thank all of those who are 
stakeholders who have had a portion and a say in the helping 
and crafting this particular bill. This is a bipartisan piece 
of legislation from those of us who are in the West.
    I ask that letters of support be placed into the record. I 
have 19 letters of those. If I could ask----
    Mr. McClintock. Without objection.
    [NOTE: The letters submitted by Mr. Bishop have been 
retained in the Committee's official files. A list of documents 
submitted can be found on page 36.]
    Mr. Bishop. Thank you. Specifically from the Central Utah 
Water Conservancy District, the Southern Ute Indian Tribe, the 
Utah Waters Association, and also the Bureau of Reclamation has 
supported this bill.
    I would also like to welcome, specifically from Provo City 
Power, Kevin Garlick, who is the energy director there, who 
will be testifying on this particular bill. This is one where, 
once again, you know, we have an endangered fish recovery 
program extension. There are, what, four different types of 
endangered fish--kind of fish that actually need to be 
protected. If we don't do this, and we lose the control of this 
project, then how we manage the water system for the entire 
Intermountain West is going to be in jeopardy. So it is one of 
those things were we really do have to go forward.
    I think, though, as this has been drafted, it has a couple 
of areas in which we have tried to make provisions to make sure 
that the bulk of the money is actually going to the issue 
itself and to the project. We have tried to cut down 
administrative overhead and tried to smooth out some of those 
areas to at least use the money wisely in this particular area. 
So I am proud of that.
    So, I want to thank those who are here. I also wish to 
apologize that I--by all rights I should stay for the entire 
meeting. I have Rules Committee that is going right now. So I 
will beg for your--you are not going to give me an apology, are 
you? I am just going to have to bolt out without having--
without asking permission----
    Mr. McClintock. The Subcommittee will miss you intensely.
    [Laughter.]
    Mr. Bishop. Oh, thank you. I don't believe any of us. But I 
appreciate that. It is very kind of you to say that.
    But I thank you for holding the hearing on this. I thank 
the witnesses who are going to be here. I think this is 
something that we all need for the Intermountain West, 
specifically in this particular area. And I think--I hope we 
have made some improvements on this bill that actually move us 
forward on the entire issue.
    And with that, I will yield back the remainder of my time. 
Thank you, Mr. Chairman.
    Mr. McClintock. Thank you.
    Mr. Gardner?

    STATEMENT OF THE HON. CORY GARDNER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Gardner. Thank you, Mr. Chairman. And thank you, as 
well, to Ranking Member Napolitano and other colleagues on this 
Committee for allowing me the opportunity to participate in 
this hearing. And I would also like to thank our colleague from 
Utah, Mr. Bishop, for introducing the Endangered Fish Recovery 
Programs Extension Act of 2012.
    The legislation before the Committee today is needed to 
protect western water projects, hydropower development, and to 
ensure these projects are compliant with the Endangered Species 
Act. The bill assists over 2,300 water projects that withdraw 
more than 3 million acre-feet of water, while at the same time 
protecting 4 endangered species of fish. It also makes 
important reforms by cutting overhead and prohibiting travel by 
Federal employees. This bill finds common ground and ensures 
Endangered Species Act protections continue, while giving the 
Bureau of Reclamation the authorization to continue with this 
effective and necessary program.
    The bill has two main components. First, the 
reauthorization of this program keeps water projects in the 
Western Region online, and I think that is important. This bill 
will help keep Western projects online.
    And second, the goal is, by 2019, to delist the Humpback 
Chub, Razorback Sucker, Bonytail, and the Colorado Pikeminnow 
from ESA restrictions. Another very worthy goal, to delist 
these species because of their recovery.
    When former Congressman Wayne Aspinall brokered legislation 
to create the Colorado River Storage Project in the 1950s and 
1960s, he knew the importance of developing water 
infrastructure for the West. Through the development of dams, 
hydroelectric power plants and water storage projects, we can 
preserve the livelihood of rural communities, and help to fight 
devastating drought, produce power, and help local businesses.
    I had the opportunity earlier this year--thank you very 
much to the Chairman again--to participate with this Committee 
in a hearing about water storage projects. In the hearing I 
expressed the importance of developing new water projects for 
surface water storage, because conservation alone cannot meet 
the needs that Colorado and the West will face. This is 
particularly true this year in the devastating drought 
conditions that we face.
    Congressman Aspinall knew the difficult challenges on how 
to balance conservation needs with traditional demands for 
resource development. The legislation before the Committee 
strikes the appropriate balance. This program keeps water 
projects operating at high capacity while continuing to protect 
endangered species. It is an important step, and I am proud to 
cosponsor H.R. 6060. And again, thank you to the Chairman and 
thank you to the sponsor.
    I yield back my time.
    [The prepared statement of Mr. Gardner follows:]

       Statement of The Honorable Cory Gardner, a Representative 
                 in Congress from the State of Colorado

    Thank you, Mr. Chairman. I would like to thank Chairman McClintock, 
Ranking Member Napolitano, and my other colleagues on this committee 
for allowing me the opportunity to participate in this hearing. I would 
also like to thank Mr. Bishop for introducing the Endangered Fish 
Recovery Programs Extension Act of 2012.
    The legislation before the committee today is needed to protect 
western water projects, hydropower development, and to ensure these 
projects are compliant with the Endangered Species Act. The bill 
assists over 2,300 water projects that withdraw more than 3 million 
acre-feet of water, while at the same time protecting four endangered 
species of fish. It also makes important reforms by cutting program 
overhead and prohibiting travel by federal employees. This bill finds 
common ground and ensures ESA protections continue, while giving the 
Bureau of Reclamation the authorization to continue with this effective 
and necessary program. The bill has two main components: first, the 
reauthorization of this program keeps water projects in the western 
region online. Secondly, the goal is by 2019, to delist the humpback 
chub, razor back sucker, bonytail, and the Colorado pikeminnow from ESA 
restrictions.
    When former Congressman Wayne Aspinall brokered legislation to 
create the Colorado River Storage Project in the 1950s and 1960s, he 
knew the importance of developing water infrastructure for the west. 
Through the development of dams, hydroelectric power plants and water 
storage projects we can preserve the livelihood of rural communities 
and help to fight drought, produce power, and help local businesses. I 
had the opportunity earlier this year to participate with this 
committee in a hearing about water storage projects. In the hearing I 
expressed the importance of developing new water projects for surface 
storage, because conservation alone cannot meet the water needs that 
Colorado and the west will face. Congressman Aspinall knew the 
difficult challenges on how to balance rising conversation needs with 
traditional demands for resource development. The legislation before 
the committee strikes an appropriate balance. This program keeps water 
projects operating at high capacity while continuing to protect 
endangered species. It is an important step, and I am proud to 
cosponsor H.R. 6060. I thank the committee again for allowing me the 
opportunity to participate, and I thank the witnesses for being here. I 
yield back the balance of my time.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Gardner.
    Mr. Tipton?

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Chairman McClintock, Ranking Member 
Napolitano, for convening today's hearing. And I would also 
like to thank Chairman Bishop for his leadership in bringing 
forward this critical legislation.
    The Upper Colorado and San Juan River Basins provide key 
water and power resources to the third congressional district 
of Colorado, and other districts in Colorado, Wyoming, Utah, 
Arizona, and New Mexico. These rivers are also home to native 
fish species at risk of jeopardy findings under the Endangered 
Species Act. Such a finding would impose on Western 
constituents dramatic losses in water availability and 
hydropower production, resulting in lost jobs and increased 
power rates at a time when we can least afford it.
    The Endangered Fish Recovery Act--Species Fish Recovery Act 
of 2012, extending the authorization for the Upper Colorado and 
San Juan fish recovery programs will continue much-needed 
efforts to recover four endangered fish species, and provide 
Endangered Species Act compliance for the Federal, Tribal, and 
non-Federal water projects. These programs are supported by a 
broad swath of stakeholders from local towns and counties to 
environmental groups to private industry, and are excellent 
examples of local solutions in lieu of onerous Federal 
management and over-regulation.
    I am also pleased to see the cost reforms in this 
legislation included at the request of Chairman McClintock. By 
cutting overhead costs and eliminating inefficient agency 
spending, we can help ensure the success of the programs, while 
minimizing the taxpayer investment necessary to be able to 
achieve that end. I am optimistic that these programs can reach 
their goals in the coming years, recover the species at issue, 
and safeguard the economic well-being of our communities and 
the jobs connected to these efforts.
    Thank you. And with that, I yield back, Mr. Chairman.
    [The prepared statement of Mr. Tipton follows:]

     Statement of The Honorable Scott R. Tipton, a Representative 
                 in Congress from the State of Colorado

    Thank you Chairman McClintock for convening today's hearing. I 
would also like to thank Chairman Bishop for his leadership in bringing 
forward this critical legislation.
    The Upper Colorado and San Juan River Basins provide key water and 
power resources to the 3rd Congressional District of Colorado and other 
districts in Colorado, Wyoming, Utah, Arizona, and New Mexico. These 
rivers are also home to native fish species at risk of a ``jeopardy'' 
finding under the Endangered Species Act. Such a finding would impose 
on western constituents dramatic losses in water availability and 
hydropower production, resulting in lost jobs and increased power rates 
at a time when we can least afford it.
    The Endangered Fish Recovery Act of 2012 extending the 
authorization for the Upper Colorado and San Juan fish recovery 
programs will continue much needed efforts to recover four endangered 
fish species and provide Endangered Species Act compliance for federal, 
tribal, and non-federal water projects. These programs are supported by 
a broad swath of stakeholders, from local towns and counties to 
environmental groups, to private industry, and are excellent examples 
of local solutions in lieu of onerous federal management and over-
regulation.
    I am also pleased to see the cost reforms in this legislation 
included at the request of Chairman McClintock. By cutting overhead 
costs and eliminating inefficient agency spending we can help ensure 
the success of the programs while minimizing the taxpayer investment 
necessary to achieve that end.
    I'm optimistic that these programs can reach their goals in the 
coming years, recover the species at issue, and safeguard the economic 
well being of our communities and jobs connected to these efforts.
                                 ______
                                 
    [A letter submitted for the record by Mr. Tipton from the 
Colorado River District follows:]

[GRAPHIC] [TIFF OMITTED] T5009.005


    Mr. McClintock. Thank you very much. Now we will hear from 
our panel of witnesses. We have a five-minute time limit, as 
was outlined in the invitation letter. Monitor that. We have an 
electronic timing system. When you are down to one minute you 
will have a yellow light. When the light turns red you will 
notice that the Members will start fidgeting uncontrollably, 
and ultimately start throwing things. So I would suggest you 
stop when the red light goes on. Of course, anything that you 
have submitted in writing will be reprinted in full in the 
Committee's proceedings.
    And with that, I am pleased to introduce our first witness, 
Mr. Bennett Raley, Counsel from Denver, Colorado, representing 
the Northern Colorado Water Conservancy District, for five 
minutes.

STATEMENT OF BENNETT W. RALEY, COUNSEL, NORTHERN COLORADO WATER 
            CONSERVANCY DISTRICT, BERTHOUD, COLORADO

    Mr. Raley. Thank you, Mr. Chairman, Ranking Member 
Napolitano, members of the Committee. It is good to be before 
this Subcommittee again. This Subcommittee has always treated 
me better than I deserved, and I thank you.
    I am here to testify in strong support of H.R. 6060. I am 
here on behalf of the Northern Colorado Water Conservancy 
District, which is one of the premier reclamation projects in 
the West. It is the project that diverts water from the 
headwaters of the Colorado over to the Eastern Plains. It 
serves roughly 640,000 acres of some of the most productive 
agricultural land in the Nation, and serves around three-
quarter-million people, with a water supply year-round. It is 
incredibly important.
    The Colorado-Big Thompson Project, which is not a CRSP 
project, nonetheless relies on the program that will be 
reauthorized by H.R. 6060.
    I am also authorized to speak on behalf of the Front Range 
Water Council. The Front Range Water Council are the water 
utilities that stretch from Pueblo in the south to Colorado 
Springs, Denver, Aurora, Northern, clear up to Fort Collins in 
the North, the entire front rage of Colorado. That constitutes 
80 percent of the population in Colorado. It is roughly 80 
percent of the GDP of the State of Colorado. And all of these 
entities rely in substantial part on a water supply that is 
covered by the program. They have evidenced their strongest 
support for it.
    I would like to provide a little history as to the intense 
need for this program. Back in the 1990s, when I was 
representing Northern Colorado, we almost went into a 
catastrophe scenario. We were threatened with target flows at 
the Utah-Colorado State Line, that, to meet those target flows 
for Endangered Species Act purposes, would have frozen all 
development in the Upper Colorado River in Colorado, and would 
have forced water users on the East and West Slope to put back 
in the stream hundreds of thousands of acre-feet of water.
    Now, some of the members, hundreds of thousands--given 
you--are in systems that are much larger than that--is a small 
amount. For Colorado, that is a huge amount. It would have been 
a catastrophe. We were close to entering into the litigation 
zone. We were able to negotiate the terms of the program. As a 
result, we have not had the litigation, as a number of you have 
mentioned. So, we are in strong support of this program.
    I would like to make two additional points. When we 
negotiated and came up with a program in 1999, we very much 
intended that this program be reauthorized by Congress 
periodically. We thought that was of great value to build the 
trust that is necessary to have a functioning program. We 
wanted Congress, the Administration, the States, power, the 
environmental community, and water users all to join in a 
transparent process, and one where it was not a secret, and one 
that had support of all the major players.
    And so, back in 1999, when we pulled back from the cliff, 
we then hoped that Congress would periodically reauthorize this 
bill.
    I will close by saying that I have had the experience of 
dealing with the Endangered Species Act in five States. It 
doesn't make me an expert. All I can do is claim survivor 
status. In fact, I confess that when I went home to Colorado I 
was happy that the Central Valley did not follow me home. I 
admit that somewhat of cowardice.
    But that experience in five States, what it has taught me 
is that if there is a program like this that is mutually 
acceptable, it is superior in all respects to the chaos of 
litigation. Because the chaos of litigation and a failure of 
this program, what it means is it is good for lawyers, and 
nothing else.
    Thank you, Mr. Chairman, Ranking Member.
    [The prepared statement of Mr. Raley follows:]

Statement of Bennett W. Raley, Trout, Raley, Montano, Witwer & Freeman, 
      P.C., Counsel, Northern Colorado Water Conservancy District

    Chairman McClintock, Ranking Member Napolitano, Members of the 
Subcommittee, it is an honor to be before you today to discuss H.R. 
6060. I serve as Counsel to the Northern Colorado Water Conservancy 
District. Northern Water is the repayment entity for the Colorado-Big 
Thompson Project, which is one of the most successful federal 
reclamation projects in the West. Northern Water and its Municipal 
Subdistrict also own, operate and are in the process of developing 
other major water supply projects in Colorado in the Colorado River and 
South Platte River Basins. Approximately 850,000 people live within the 
boundaries of Northern Water and its Municipal Subdistrict. Northern 
Water and its Municipal Subdistrict provide year-round water supplies 
to over 40 municipalities and domestic water supply districts. Northern 
Water also delivers water to more than 120 ditch, reservoir, and 
irrigation companies that serve thousands of farms and more than 
640,000 acres of some of the most productive farmland in the western 
United States. Northern Water participates in and supports the Upper 
Colorado River Endangered Fish Recovery Program.
    My perspective on H.R. 6060 is also shaped by my experience over 
the years, with varying levels of intensity, with aquatic and 
terrestrial Endangered Species Act issues in Colorado, the Klamath 
River Basin, the Central Valley of California and the Middle Rio Grande 
in New Mexico, and with ESA-related litigation in federal courts in New 
Mexico and Arizona. I have also had some experience with the Multi-
Species Conservation Plan in the Lower Colorado River, the Adaptive 
Management Program in the Grand Canyon of the Colorado, the Platte 
River Recovery Implementation Program, the Middle Rio Grande Endangered 
Species Collaborative Program, and finally, the Upper Colorado River 
and San Juan River Endangered Fish Recovery Programs that are the 
subject of today's hearing.
    I am also authorized to state that the Front Range Water Council, 
which includes Aurora Water, Denver Water, Colorado Springs Utilities, 
Northern Water, Pueblo Board of Water Works, Southeastern Colorado 
Water Conservancy District and the Twin Lakes Reservoir and Canal 
Company, is in full support of H.R. 6060. The Front Range Water Council 
entities collectively provide a water supply derived from Colorado 
River projects covered by the Upper Colorado River Program to 
approximately 4 million people and over 900,000 acres of irrigated 
lands.
    I know that the Members of this Subcommittee and your staff are 
very knowledgeable about the Upper Colorado and San Juan Endangered 
Fish Recovery Programs, and that the testimony of other witnesses and 
the legislative history of this and prior related legislation contain a 
complete Program description, so I will focus my testimony on two 
points in order to avoid needless repetition.
    First, I cannot overstate the importance of the Upper Colorado 
River Endangered Fish Recovery Program to Northern Water and the other 
Front Range Water Council entities. These entities are in the process 
of spending millions of dollars in support of the Program in addition 
to the contributions by the States and power customers. These entities 
have the obligation and responsibility to provide a safe and reliable 
water supply for approximately 80% of Colorado's economy. The Front 
Range Water Council entities support the Program because it is the best 
way to avoid uncertainty and the economic and social costs experienced 
by other areas of the West that have been plunged into chaos by 
conflicts between water supply needs and endangered species. The risks 
of not having a successful Program are far too great. And as the 
Members of this Subcommittee well know, those risks include years of 
litigation at best, and potentially a devastating disruption of water 
supplies that are critically important to cities, agriculture and 
industry.
    Many years ago my Congressional testimony was to the effect that in 
a perfect world the Endangered Species Act would be repealed and 
replaced with a program that does more in the real world to protect 
species and their habitat and does less for lawyers and consultants. 
However, we do not live in a perfect world, and reauthorization and 
reform of the Endangered Species Act as a whole does not appear to be 
imminent. As an attorney who has participated in ESA-related litigation 
and has the responsibility of advising clients regarding the risks of 
litigation under the ESA, I can tell you that my advice to clients who 
wish to focus on delivering water instead of spending their time in 
court defending their water supplies is to support a reasonable program 
that achieves ESA objectives without sacrificing operational 
flexibility and yield of their water supply projects. Entities like 
Northern Water and the other Front Range Water Council entities have 
concluded that programs like the Upper Colorado River Endangered Fish 
Recovery Program are the best way for them to avoid potentially 
catastrophic conflicts under the Endangered Species Act and to continue 
to provide safe and reliable water supplies for cities, for farms, and 
for industry. I do not mean to suggest that Northern Water and other 
water entities will not have scientific and legal defenses to attempts 
to use the ESA to interfere with their water supply projects, but the 
certainty of the Program is clearly preferable to the uncertainty of 
litigation.
    Second, my testimony in support of the swift passage and enactment 
of H.R. 6060 is also shaped by a portion of the history of the Upper 
Colorado River Endangered Fish Recovery Program. While this Program had 
been in existence for a number of years, in the late 1990's water users 
in Colorado were suddenly confronted with threats to use the Endangered 
Species Act to impose ``target flows'' for listed species for the 
Colorado River at the Colorado-Utah State line. The threatened target 
flows were substantial--under some hydrologic conditions meeting the 
target flows would have required no new depletions in the Colorado 
River Basin in Colorado and the cessation of hundreds of thousands of 
acre-feet of existing diversions. Simply put, we were about to go over 
a precipice into the chaos of litigation and court-directed operations 
of the Colorado River water supply projects that are the lifeblood of 
the State of Colorado.
    Things looked quite grim until some of the major water users in 
Colorado, Ralph Morganweck, the then-Regional Director of the United 
States Fish and Wildlife Service, and leading members of the 
environmental community in Colorado developed the trust that was 
necessary to develop a mutually acceptable cooperative recovery program 
that avoided the looming conflict between water and hydropower projects 
and the endangered species in the Upper Colorado River Basin. The Upper 
Colorado River Endangered Fish Recovery Program, as currently 
constituted and implemented through the 1999 Programmatic Biological 
Opinion, was the result of this trust. While not perfect, this Program 
has so far survived two record-setting droughts in the Colorado River 
Basin and produced continuing gains for the listed species and a means 
by which over 2,300 existing and future water-related activities could 
receive ongoing Section 7 coverage.
    I participated in those negotiations on behalf of Northern Water. 
At the time, Northern Water believed that periodic Congressional 
reauthorization of the Program was critically important to creating a 
sound program that was supported by Congress, the Department of the 
Interior, the Upper Colorado River Basin States, water users and power 
customers, and the environmental community. As a result, in 2000 
Northern Water supported the legislation that was enacted as Public Law 
106-392. Today, Northern Water strongly believes that Congress should 
reauthorize the Program as was originally contemplated back in 2000.
    Your oversight and support of the Program is essential, as the 
future success of this Program is dependent on a continuation of the 
trust that allowed the Upper Colorado River Basin to avoid the 
catastrophic conflicts between endangered species and water development 
and use that exist elsewhere in the West. That trust is best preserved 
by your continued oversight of the Program and its expenditures. 
Northern Water and the Front Range Water Council entities support H.R. 
6060, including appropriate measures that are designed to ensure that 
the available funds are used in the most effective manner possible.
    A failure of the Upper Colorado River Endangered Fish Recovery 
Program will be good for lawyers and not much else. More importantly, a 
failure of the Program will put at risk the water supply for 4 million 
people and 900,000 acres of irrigated land in the Front Range of 
Colorado. Accordingly, Northern Water and the Front Range Water Council 
urge the swift passage and enactment of H.R. 6060.
    Thank you for allowing me to testify today.
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony.
    The Committee next welcomes Mr. Kevin Garlick, Executive 
Director for the Provo City Power Department in Provo, Utah.

         STATEMENT OF KEVIN GARLICK, ENERGY DIRECTOR, 
                 PROVO CITY POWER, PROVO, UTAH

    Mr. Garlick. Chairman McClintock, Ranking Member 
Napolitano, members of the Subcommittee, I am pleased to 
testify today on behalf of Provo City Power and CREDA, which 
represents the Colorado River Energy Distributors Association, 
in support of H.R. 6060, the Endangered Fish Recovery Programs 
Extension Act.
    Before I state our reasons for supporting this bill, I 
would like to thank Representatives Rob Bishop, Jim Matheson, 
and Jason Chaffetz from Utah, and the other original cosponsors 
of H.R. 6060, for introducing this bill and working to get this 
hearing scheduled today.
    Provo City Power is a non-profit, electric municipal 
utility that serves over 35,000 electrical customers in the 
City of Provo, Utah. CREDA is a non-profit organization that 
represents consumer-owned electric utilities, including 
municipal utilities like Provo City Power, electrical 
cooperatives, State agencies, and the Indian Tribes that 
purchase clean, renewable, and hydropower for multipurpose 
Federal Colorado River Storage Project. CREDA members include--
utilities currently serving over 4 million electric consumers 
in Arizona, Colorado, New Mexico, Nevada, Utah, and Wyoming.
    The Upper Colorado River and the San Juan River Recovery 
Programs, which I will refer to collectively as the RRP, were 
authorized to recover four endangered species in the two river 
basins: the Colorado Pikeminnow, the Bonytail Chub, the 
Humpback Chub, and the Razorback Sucker. The RRP is a multi-
year collaborative effort between the Federal Government, the 
Upper Colorado River Basin States, the water and power 
customers who benefit from the CRSP, Indian Tribes, and others 
to recover these species, while preserving the value of the 
Colorado River for water and power development and operations.
    I have attached a list of the participants in the RRP 
program to my written testimony. The RRP provides compliance 
with the Endangered Species Act for over 2,300 water projects 
in 5 States, which collectively would draw about 3.7 million 
acre-feet of Colorado River water per year, and allows 
continued operation of the Flaming Gorge Dam and the Aspinall 
unit of the CRSP for water and power delivery. The program has 
two funding mechanisms, a capital funding component, and an 
annual funding component. The CRSP power customers provide 
funding for the RRP from the cell of CRSP hydropower to help 
finance both components, as do the Federal Government, the 
States, and the water users.
    The capital component funds an activity--the capital funds 
activities such as the fish hatcheries, the passages and 
screens, water acquisitions, and flood plain restorations to 
recover the endangered species. Annual funding provides money 
for the non-capital funding of the RRP, such as predator 
control, public outreach, and administrative expenses, 
including program management. The bill before the Subcommittee 
today would reauthorize the use of the power revenues for the 
annual funding for the RRP through 2019. The use of power 
revenues for these purposes originally authorized by Congress 
in 2000 expire at the end of 2011.
    Absent reauthorization, funding for these non-capital 
activities would be at risk, and the success of the program 
would be jeopardized. Provo City Power and CREDA believe the 
RRP is an excellent example of the private-public cooperation 
and collaboration to balance the use of the Colorado River and 
restore endangered species. We commend Congress for its 
foresight in authorizing the RRP in 2000. We strongly support 
H.R. 6060, and hope the Subcommittee will act promptly to move 
this bill forward. Thank you.
    [The prepared statement of Mr. Garlick follows:]

    Statement of Kevin Garlick, Energy Director, Provo City Power, 
                              Provo, Utah

    Chairman McClintock, Ranking Member Napolitano, Members of the 
Subcommittee, I am pleased to be here today to testify on behalf of 
Provo City Power and the Colorado River Energy Distributors Association 
(CREDA) on H.R. 6060, the Endangered Fish Recovery Programs Extension 
Act.
    Provo City Power is a not-for profit, municipally-owned electric 
utility that serves approximately 35,000 retail electric customers in 
Provo, Utah.
    CREDA is a non-profit organization that represents consumer-owned 
electric systems that contract for the delivery of federal hydropower 
from the Colorado River Storage Project (CRSP), transmitted over the 
federal transmission system of the Western Area Power Administration 
(WAPA). The CRSP includes several dams and reservoirs that provide 
municipal and industrial (M&I) and irrigation water supplies and 
generate clean, renewable hydropower for over 5 million consumers in 
six western states.
    CREDA members are all non-profit organizations, serving over four 
million electric consumers in Arizona, Colorado, Nevada, New Mexico, 
Utah and Wyoming. Members include political subdivisions--like Provo 
City Power--electric cooperatives, state agencies, municipalities and 
tribal utilities.
    CREDA members (listing attached) purchase over 85 percent of the 
CRSP hydropower generation, the revenues from which are a primary 
funding source of the Upper Colorado River and San Juan River 
Endangered Fish Recovery Implementation Programs (Recovery Programs). 
CREDA has been an active participant in these Recovery Programs since 
their authorization.
    The Recovery Programs provide Endangered Species Act (ESA) 
compliance for over 2,320 water projects that withdraw about 3.7 
million acre-feet of water annually. The goals of the programs are to 
recover four endangered fish species--the humpback chub, razorback 
sucker, bonytail chub and the Colorado pikeminnow--while continuing 
operations and development of water projects in the Upper Colorado 
River and San Juan River basins, and operation of the Flaming Gorge Dam 
and Aspinall Unit facilities of the Colorado River Storage Project 
(CRSP.)

THE COLORADO RIVER STORAGE PROJECT (CRSP)
    The CRSP was authorized in the Colorado River Storage Project Act 
of 1956 (P.L. 485, 84th Cong., 70 Stat. 50), as a multi-purpose federal 
project that provides flood control and water storage for irrigation, 
municipal and industrial purposes, in addition to the generation of 
hydropower. The operations of two of CRSP's features--Flaming Gorge Dam 
and the Aspinall Unit--are affected by decisions relating to recovery 
of the endangered species in the Upper Colorado and San Juan Basins. 
Since the early 1990's, as part of the Recovery Program, studies have 
been undertaken to determine endangered fish needs in this regions and 
operations of the dams have been adjusted.
    Flaming Gorge Dam is on the Green River, a major tributary of the 
Colorado River, and is located near Vernal, Utah. Flaming Gorge has 
three units producing about 152 MW of generation. In 2007, the Bureau 
of Reclamation (Reclamation) finished an environmental impact states 
and issued a Record of Decision on the operations of Flaming Gorge Dam, 
which is intended to assist in recovery of the endangered fish species.
    Changes in the operation of the Flaming Gorge generating units were 
estimated in the EIS to impact CRSP hydropower generation by $118.7 
million over a 25-year period.
    The Aspinall Unit includes three dams and generating units along 
the Gunnison River near Gunnison, Colorado. Blue Mesa is the first dam 
on the river and has two generating units producing about 97 MW. Morrow 
Point is the second dam in the series and consists of two generators 
producing a total of 146 MW. Crystal is the final dam and has one 32 MW 
generator. Morrow Point and Crystal Reservoirs allow some regulation of 
the river flow so that releases from Crystal can be used to regulate 
downstream flows as necessary.
    Reclamation completed an Environmental Impact Statement on the 
operation of the Aspinall Unit, and issued a Record of Decision on May 
3, 2012. The changed operations are intended to assist in the recovery 
of endangered fish species while maintaining the authorized purposes of 
the Unit, and will result in impacts to CRSP hydropower generation.

HISTORY OF THE RECOVERY PROGRAMS
    The Recovery Programs were established through Cooperative 
Agreements among the Upper Basin States of Colorado, Utah, New Mexico 
and Wyoming and federal agencies in 1988 (Upper Colorado) and 1992 (San 
Juan) for an initial 15-year period to help recover four species of 
endangered fish in the two river basins. In August 2009, the 
Cooperative Agreements were extended through 2023.
    In October 2000, Congress passed legislation (P.L. 106-392) which 
authorized a $100 million capital improvements program. The legislation 
required ``matching funds'' for the capital program so that, in the 
event State funding for the program ceased, so too would power revenue 
funding.
    CREDA testified in support of this legislation in both the House 
and Senate. The legislation also had the support of the Upper Basin 
States, federal agencies and some environmental groups.
    The 2000 law also authorized the use of CRSP power revenue funding 
for ``base funding'' of activities including operation and maintenance 
of capital features, and recovery actions other than capital projects, 
including monitoring and research, and program management.
    The law states that, ``The utilization of power revenues for annual 
based funding shall cease after fiscal year 2011, unless reauthorized 
by Congress; except that power revenues may continue to be utilized to 
fund the operation and maintenance of capital project and monitoring.''
    This partial sunset reduced the availability of annual power 
revenue funding from approximately $7.5 million to approximately $4.0 
million per year. The shortfall of approximately $3.5 million may 
eliminate several ongoing annual activities (such as research and non-
native fish control) needed to maintain ESA compliance.
    To date, CRSP power revenues have provided over $79.7 million of 
annual, or ``base'', funding.

NEED FOR H.R. 6060
    CREDA has been an active participant in the Recovery Programs since 
their inception, and believes that the programs are an excellent model 
of federal/non-federal collaboration. Efforts towards endangered fish 
recovery have had success and continue, but recovery has not been 
achieved.
    In order for there to be a reliable, certain source of funding for 
annual ``base'' funding, H.R. 6060 would extend the authorization for 
the Upper Colorado and San Juan Recovery Programs through FY 2019, at 
current levels.
    As under current law, after 2019 use of annual base funding would 
be limited to operation and maintenance of capital projects and 
monitoring.
    H.R. 6060 would also make the following changes in the program:
        <bullet>  Require a report by the Secretary of the Interior in 
        FY 2018 regarding the status of the species and the use of 
        power revenues for base funding, in order to provide Congress 
        with more timely information;
        <bullet>  Limit the overhead rate applied to funds transferred 
        to the U.S. Fish & Wildlife Service from federal agencies to 
        3%; and
        <bullet>  Limit the use of federal funds by Department of 
        Interior staff to travel to locations other than their duty 
        station to advocate for the program.
    Provo City and CREDA continue to support the Recovery Programs and 
urge passage of H.R. 6060.
                                 ______
                                 

   COLORADO RIVER ENERGY DISTRIBUTORS ASSOCIATION (CREDA) MEMBERSHIP

ARIZONA
    Arizona Municipal Power Users Association
    Arizona Power Authority
    Arizona Power Pooling Association
    Irrigation and Electrical Districts Association of Arizona, Inc.
    Navajo Tribal Utility Authority (also New Mexico, Utah)
    Salt River Project
COLORADO
    Colorado Springs Utilities
    Intermountain Rural Electric Association
    Platte River Power Authority
    Tri -State Generation & Transmission Cooperative (also Nebraska, 
Wyoming and New Mexico)
    Yampa Valley Electric Association, Inc.
NEVADA
    Colorado River Commission of Nevada
    Silver State Electric Association
NEW MEXICO
    Farmington Electric Utility System
    Los Alamos County
    Tri-State Generation & Transmission Cooperative
    City of Truth or Consequences
UTAH
    City of Provo
    City of St. George
    South Utah Valley Electric Association
    Utah Associated Municipal Power Systems
    Utah Municipal Power Agency
WYOMING
    Wyoming Municipal Power Agency
_______________________________________________________________________
Upper Colorado River Endangered Fish Recovery Program Partners
        <bullet>  State of Colorado
        <bullet>  State of Utah
        <bullet>  State of Wyoming
        <bullet>  Bureau of Reclamation
        <bullet>  Colorado River Energy Distributors Association
        <bullet>  Colorado Water Congress
        <bullet>  National Park Service
        <bullet>  The Nature Conservancy
        <bullet>  U.S. Fish and Wildlife Service
        <bullet>  Utah Water Users Association
        <bullet>  Western Area Power Administration
        <bullet>  Western Resource Advocates
        <bullet>  Wyoming Water Association
San Juan River Basin Recovery Implementation Program Partners
        <bullet>  State of Colorado
        <bullet>  State of New Mexico
        <bullet>  Jicarilla Apache Nation
        <bullet>  Navajo Nation
        <bullet>  Southern Ute Indian Tribe
        <bullet>  Ute Mountain Ute Tribe
        <bullet>  Bureau of Indian Affairs
        <bullet>  Bureau of Land Management
        <bullet>  Bureau of Reclamation
        <bullet>  The Nature Conservancy
        <bullet>  U.S. Fish and Wildlife Service
        <bullet>  Water Development Interests
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony.
    Our next witness is Mr. Grayford Payne, a Deputy 
Administrator for Policy Administration and Budget from the 
Bureau of Reclamation.

 STATEMENT OF GRAYFORD PAYNE, DEPUTY COMMISSIONER FOR POLICY, 
    ADMINISTRATION AND BUDGET, BUREAU OF RECLAMATION, U.S. 
          DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Payne. Thank you, Chairman. Chairman McClintock, 
Ranking Member Napolitano, and members of the Subcommittee, I 
am Grayford Payne, Deputy Commissioner of Policy, 
Administration, and Budget at the Bureau of Reclamation. I am 
pleased to provide the views of the Department of the Interior 
on H.R. 6060, the Endangered Fish Recovery Programs Extension 
Act of 2012. With some clarifications, I will summarize today.
    The Department supports H.R. 6060. The Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin 
Recovery Implementation Program share the dual goal of 
recovering populations of endangered fish, while enabling water 
development. Program actions provide Endangered Species Act 
compliance for more than 2,300 Federal, Tribal, and non-Federal 
water projects depleting 3.4 million acre-feet of water per 
year in the Colorado and San Juan Rivers and their tributaries.
    The programs expressly authorized under Public Law 106-392 
in 2000 were first established under cooperative agreements in 
1988 for Upper Colorado and 1992 for San Juan, respectively. 
Program partners include the State of Colorado, New Mexico, 
Utah, Wyoming, as well as Western Area Power Administration, 
Bureau of Reclamation, Fish and Wildlife Service, Bureau of 
Land Management, National Park Service, Indian Affairs, along 
with Native American Tribes, environmental organizations, water 
users, and power customers.
    Public law 106-392 provides clear parameters for the use of 
the $6 million per year, indexed for inflation, of Colorado 
River Storage Project hydropower revenues from Glen Canyon Dam 
and other CRSP facilities to support the base funding needs of 
the programs. Base funding is used for program management, 
scientific research, fish population monitoring, fish stocking, 
control of non-native fish, and operation and maintenance of 
capital projects.
    The Department believes that the CRSP Act of 1956 provides 
the underlying authority for the use of hydropower revenues to 
support the base funding needs of the program. From that 
perspective, H.R. 6060 provides the complementary authority to 
continue using power revenues for base funding, in our view.
    We understand the program partners' desire for certainty, 
and we recognize that P.L. 106-392 provides a good approach to 
implementing the programs. For that reason, we support the 
complementary use of that authority, and support H.R. 6060. The 
Department, however, reserves the right to comment on any 
specific funding offsets that may be suggested in order to meet 
the Committee's funding requirements. Section 2 of H.R. 6060 
would require--would extend the authorization to utilize CRSP 
hydropower revenues at the current level, approximately $7.6 
million in 2012 dollars through 2019 to support the base 
funding needs of both programs.
    Section 2 of H.R. 6060 would also direct the preparation of 
a second report to Congress on the utilization of hydropower 
revenues by 2018, with new requirements that the report 
describe the status of listed fish with projected dates for 
downlisting and delisting them under the ESA.
    Section 3 of the bill would limit rates for cost recovery 
by the U.S. Fish and Wildlife Service on transfers from other 
agencies. And Section 4 would limit the use of Federal funds 
for advocacy by departmental employees.
    My written statements speak more fully to these sections of 
this legislation, as they pertain more directly to the Fish and 
Wildlife Service. I will otherwise defer on addressing these 
issues during today's testimony.
    In closing, the Upper Colorado River and San Juan River 
recovery programs take a successful cooperative approach to 
recovering aquatic native fish species, avoiding litigation and 
providing ESA compliance to Federal and non-Federal water 
users. The continued use of CRSP hydropower revenues is 
critical to the ability of these programs to realize their 
goal.
    This concludes my statement. I would be pleased to answer 
any questions at the appropriate time. Thank you.
    [The prepared statement of Mr. Payne follows:]

    Statement of Grayford F. Payne, Deputy Commissioner for Policy, 
 Administration and Budget, Bureau of Reclamation, U.S. Department of 
                              the Interior

    Chairman McClintock and Members of the Subcommittee, I am Grayford 
Payne, Deputy Commissioner for Policy, Administration and Budget at the 
Bureau of Reclamation (Reclamation). I am pleased to provide the views 
of the Department of the Interior (Department) on H.R. 6060, the 
``Endangered Fish Recovery Programs Extension Act of 2012.'' With some 
clarifications described below, the Department would support H.R. 6060.
    The Upper Colorado River Endangered Fish Recovery Program and San 
Juan River Basin Recovery Implementation Program (Programs) share the 
dual goals of recovering populations of endangered fish while water 
development continues to meet current and future human needs. Program 
actions provide Endangered Species Act (ESA) compliance for more than 
2,300 federal, tribal, and non-federal water projects depleting 3.4 
million acre-feet of water per year in the Colorado and San Juan rivers 
and their tributaries. The Programs, authorized by Public Law 106-392, 
as amended, were established under cooperative agreements in 1988 
(Upper Colorado) and 1992 (San Juan) and were funded through the 
Colorado River Storage Project Act of 1956 (CRSP). Program partners 
include the states of Colorado, New Mexico, Utah, and Wyoming; the 
Bureau of Reclamation, Western Area Power Administration, U.S. Fish and 
Wildlife Service, Bureau of Land Management, National Park Service, and 
Bureau of Indian Affairs; Native American tribes; environmental 
organizations; water users; and power customers.
    Public Law (PL) 106-392 expressly authorized the use of a maximum 
of $6 million per year (indexed for inflation) in CRSP hydropower 
revenues from Glen Canyon Dam and other CRSP facilities to support the 
base funding needs of the Programs through 2011. Base funding is used 
for program management, scientific research, fish population 
monitoring, fish stocking, control of non-native fish, and operation 
and maintenance of capital projects.
    Section 2 of H.R. 6060 as introduced would extend the authorization 
to utilize CRSP hydropower revenues at the current level (up to $6 
million per year adjusted for inflation, or approximately $7.6 million 
in 2012 dollars) through 2019 to support the base funding needs of both 
Programs. The Program's recovery goals extend to the year 2023 \1\, and 
that date has been recognized in prior versions of this bill during 
three consecutive sessions of Congress \2\. However we understand that 
H.R. 6060's extension to the year 2019 is linked to a limitation in the 
House's current rules regarding the length of authorizations for all 
programs, and has no linkage to these specific Programs. Section 2 of 
the bill would also direct the preparation of a second report to 
Congress on the utilization of hydropower revenues \3\ by 2018, with 
new requirements that the report describe the status of listed fish 
with projected dates for downlisting and delisting them under the ESA.
---------------------------------------------------------------------------
    \1\ The most recent drafts of the recovery goals (2008) contain the 
following time frames for delisting the four endangered fish species: 
humpback chub (2016), Colorado pikeminnow (2021), razorback sucker 
(2023), and bonytail chub (2023). These documents are currently under 
review and final documents are not yet available.
    \2\ H.R. 7169 (110th Congress), H.R. 2288 (111th Congress), S. 1453 
(111th Congress), and S. 1224 (112th Congress).
    \3\ Reclamation submitted the first report pursuant to Section 
3(d)(2) of PL 106-392 on April 28, 2010.
---------------------------------------------------------------------------
    The Department believes that the CRSP Act of 1956 provides the 
underlying authority for the use of hydropower revenues to support the 
base funding needs of the Programs. From that perspective, H.R. 6060 
provides complementary authority to continue using power revenues for 
base funding in our view. We understand the Program partners' desire 
for certainty, and we recognize that PL 106-392 provided a good 
approach to implementing the Programs. For that reason we support the 
complementary use of that authority and support H.R. 6060. The 
Department, however, reserves the right to comment on any specific 
funding offset that may be suggested in order to meet the Committee's 
funding requirements.
    Section 3 of H.R. 6060 would limit the rates of cost recovery by 
the U.S. Fish and Wildlife Service on any transfers to the agency for 
activities associated with the Programs. The Bureau of Reclamation 
transfers funds to the Fish and Wildlife Service to conduct work under 
the Recovery Programs. With the funds provided by Reclamation, the 
Service conducts biological research, monitors fish populations and 
their responses to recovery actions, implements non-native fish 
control, produces endangered fish for stocking and provides program 
management services. The Service charges Reclamation a reduced overhead 
rate of 11% for these activities. Fish and Wildlife Service Policy (264 
FW 1) and the Office of Management and Budget (OMB) Circular A-25 
require that the Service recover full costs of providing goods and 
services to private entities, States, tribes, and other government 
agencies. This achieves the dual objectives of ensuring that the 
service, sale, or use of Service goods or resources are provided to 
agencies in a self-sustaining manner; and promoting efficient 
allocation of our resources by establishing charges that reimburse the 
Service for these activities. Limiting the cost recovery rate to 3 
percent would make it impossible for the Service to recover the full 
costs of providing these services. We would be happy to work with the 
Committee to explore alternative language regarding cost recovery.
    Section 4 of H.R. 6060 would direct that no federal funds may be 
used for any Departmental employees or detailees to travel to any 
locations to ``. . .advocate, lobby, or attend meetings that advocate 
or lobby. . .'' for the Programs. Existing law restricts lobbying with 
appropriated funds and is applicable to all executive branch agencies, 
including the Department. This existing provision makes Section 4 
unnecessary and duplicative of existing law.
    The Upper Colorado and San Juan River Recovery Programs have been 
nationally recognized for their cooperative approach to recovering 
aquatic native fish species, avoiding litigation, and providing ESA 
compliance to federal and non-federal water users. The continued use of 
CRSP hydropower revenues is critical to the ability of these Programs 
to realize their goals. There appears to be strong support for this 
legislation from the Program's non-federal stakeholders.
    This concludes my written statement. I would be pleased to answer 
questions at the appropriate time.
                                 ______
                                 
    Mr. McClintock. Great. Thank you for your testimony.
    Our next witness is Mr. Randy Kirkpatrick, Executive 
Director for the San Juan Water Commission in Farmington, New 
Mexico. Welcome.

      STATEMENT OF RANDY KIRKPATRICK, EXECUTIVE DIRECTOR, 
       SAN JUAN WATER COMMISSION, FARMINGTON, NEW MEXICO

    Mr. Kirkpatrick. Chairman McClintock, Ranking Member 
Napolitano, members of the Water and Power Subcommittee, it is 
a pleasure to be before you in support of the Endangered Fish 
Recovery Programs Extension Act of 2012. Both of the programs, 
the Upper Colorado and the San Juan Recovery Program, are 
recognized successes.
    Today I will focus on the San Juan Basin Recovery 
Implementation Program, as others before you will today address 
the Upper Basin Program.
    I am the Executive Director of the San Juan Water 
Commission established in 1986 to develop, administer the 
Animas-La Plata Water Project, and plan, protect, and secure 
sufficient water supplies for existing and future uses in San 
Juan County, New Mexico.
    The Commission has participated in the development 
implementation of the San Juan Recovery Program for 23 years, 
and continues today in working to a successful meeting of the 
program goals. And those goals are to conserve the population 
of Colorado Pikeminnow and Razorback Sucker in the Basin, 
consistent with the recovery goals established under the 
Endangered Species Act, and to proceed with water development 
and compliance with Federal and State laws, inter-state 
compacts, Supreme Court decrees, and Federal trust 
responsibility to the Southern Ute Tribe, Ute Mountain Tribe, 
Jicarilla Nation, and the Navajo Nation.
    Program participants include 12 parties: State, Federal 
agencies, environmental interests, Tribes, and water users, a 
list of which is on my written testimony. In the San Juan 
Basin, 319 projects representing 880,000 acre-feet have met ESA 
compliance as a result of this program, including those needed 
to meet the Federal settlement of four Native American Tribes--
Nations in the Basin.
    The two endangered fish have been recovering since 1990. 
The Colorado Pikeminnow has grown from as few as 20 to well 
over 2,500 in the San Juan River. The Razorback Sucker, 
virtually from none to over 1,200 adults in 2010. The defined 
end point for the program is the delist dates for the Colorado 
Pikeminnow, 2020, and the Razorback Sucker, 2023.
    Following delisting, the Federal Government, States--and 
possibly other parties will enter into agreements to prevent 
the fish becoming listed again. Cost support for the program 
has been provided by a combination of State, power customers, 
water users, and the Federal Government. Support has always 
been across the board, and continues thus, as evidenced by the 
sponsor of the amendment before you today.
    Without this amendment, long-term improvements, protection 
of the fish status, and our ability to fully develop and use 
our already limited water supplies may be in jeopardy. Public 
Law 106-392 should be amended to allow continued use of power 
revenues for annual base funding of all activities, as 
originally authorized.
    I appreciate this opportunity to provide this testimony to 
the Water and Power Subcommittee. Thank you.
    [The prepared statement of Mr. Kirkpatrick follows:]

        Statement of L. Randy Kirkpatrick, Executive Director, 
           San Juan Water Commission, Farmington, New Mexico

    My name is Randy Kirkpatrick. I am Executive Director, San Juan 
Water Commission, Farmington, New Mexico. I am here to testify in 
support of H.R. 6060.
    The San Juan Water Commission (Commission) was established in 1986 
to receive and administer Animas-La Plata Project water and secure 
additional water supplies for existing and future demands for San Juan 
County. The Commission holds water rights, monitors water supplies and 
collects data. The Commission advocates water resource conservation and 
water development. The Commission represents more than 120,000 people 
in northwestern New Mexico.
    The Commission participated in negotiations initiated in 1989 
regarding Endangered Species Act compliance for water projects that 
resulted in creation of the San Juan River Basin Recovery 
Implementation Program (San Juan Program). The Commission has been 
actively involved in implementation of the San Juan Program since its 
inception in 1992.
    My testimony will focus on the San Juan Program, the benefits of 
the Program to federal, non-federal and tribal water users in the San 
Juan basin, and the need for H. R. 6060.
    I believe you will be receiving or have received letters of support 
for H.R. 6060 from numerous non-federal participants in the San Juan 
program.

UPPER COLORADO AND SAN JUAN RIVER BASIN RECOVERY PROGRAMS
    The programs have the goals of recovering four federally listed 
endangered fish species in the Upper Colorado River basin while water 
development and management activities proceed in compliance with state 
and laws, interstate compacts, tribal water rights, Indian trust 
responsibilities of the United States, and the Federal Endangered 
Species Act. Activities of the programs provide Endangered Species Act 
compliance for more than 2,300 water projects depleting approximately 
three million acre-feet per year in the Upper Colorado River and San 
Juan River basins, including every Bureau of Reclamation project in the 
Upper Basin upstream of Lake Powell, water projects that meet the 
United States trust obligations to American Indian tribes, and 
literally hundreds of non-federal water projects providing water for 
municipal, irrigation, industrial, and recreational uses. No lawsuits 
have been filed as a result of ESA compliance for water projects under 
the recovery programs.
    The programs have been hailed by administrations of both parties 
for their successes. In 2000, Secretary of the Interior, Bruce Babbitt 
referred to the Upper Basin recovery programs as ``an ongoing success 
story'' (Colorado River Water Users Association, 2000). Secretary of 
the Interior Gale Norton referred to the programs as a national model 
of how the Endangered Species Act should be implemented (Colorado Water 
Congress, 2006). In 2008, Secretary Dirk Kempthorne awarded the Upper 
Basin and San Juan programs the Department of the Interior's 
Cooperative Conservation Award for the successful history of 
stakeholder collaboration resolving ``seemingly intractable water use 
conflicts...''
    The programs have substantial grassroots support among 
participants. Since the inception of these programs, they have enjoyed 
strong support in Congress, as indicated by the substantial bi-partisan 
support for H.R. 6060.

THE SAN JUAN RECOVERY PROGRAM
    The San Juan Program was established in 1992. The San Juan Program 
includes the San Juan River drainage in Colorado, New Mexico, and Utah, 
totaling approximately 23,000 square miles. The two goals of the 
Recovery Program are:
        1)  to conserve populations of Colorado pikeminnow and 
        razorback sucker in the basin consistent with the recovery 
        goals established under the Endangered Species Act, and
        2)  to proceed with water development in the basin in 
        compliance with federal and state laws, interstate compacts, 
        Supreme Court decrees, and federal trust responsibilities to 
        the Southern Ute Tribe, Ute Mountain Ute Tribe, Jicarilla 
        Apache Nation, and the Navajo Nation.
    The dual goals guide actions by the San Juan Program.
    San Juan Program participants include:
        <bullet>  Bureau of Reclamation
        <bullet>  U.S. Fish & Wildlife Service
        <bullet>  Bureau of Indian Affairs
        <bullet>  Bureau of Land Management
        <bullet>  States of Colorado and New Mexico
        <bullet>  Jicarilla Apache Nation
        <bullet>  Navajo Nation
        <bullet>  Southern Ute Tribe
        <bullet>  Ute Mountain Ute Tribe
        <bullet>  The Nature Conservancy
        <bullet>  Water Development Interests
ESA Compliance for Water Depletions in the San Juan Basin
    The San Juan Program implements actions to achieve recovery of the 
species and provide ESA compliance for Federal, non-Federal and tribal 
water development and management activities. These actions avoid 
jeopardy, avoid adverse modifications of critical habitat, and provide 
measures to minimize any incidental take of endangered fish that 
occurs. Federal Reclamation Projects include Navajo Dam, Reservoir, the 
Animas-La Plata Project and others. ESA compliance for water projects 
in New Mexico, Colorado, and Utah is summarized in the table below:

[GRAPHIC] [TIFF OMITTED] T5009.001


    .epsIn addition to in-basin water use, the Recovery Program 
provides ESA compliance for the Reclamation's San Juan-Chama Project. 
San Juan-Chama diverts 100,000 acre-feet/year of critical water 
supplies to Rio Grande basin municipalities, industries, agriculture, 
and Native American pueblos in central New Mexico.
ESA Compliance for Tribal Water Projects
    Reservations of four Native American tribes are located wholly or 
partially within the San Juan basin: Navajo Nation, Jicarilla Apache 
Nation, Southern Ute Tribe, and Ute Mountain Ute Tribe. The Secretary 
of the Interior has a trust responsibility to assert and protect the 
trust water resources of the four tribes in the basin. The San Juan 
Program allows the United States to carry out its trust 
responsibilities in compliance with the ESA for a number of activities 
that benefit the tribes including:
        <bullet>  Colorado Ute Settlement
        <bullet>  Navajo Water Settlement
        <bullet>  Jicarilla PNM Water Contract
        <bullet>  Navajo Gallup Pipeline
        <bullet>  Navajo Indian Irrigation Project
        <bullet>  Jicarilla Water Settlement
    The San Juan Program also provides ESA compliance for small water 
projects on tribal lands benefitting the tribes.
Recovery of Endangered Fish in the San Juan Basin
    The originators of the San Juan Program recognized that factors 
other than flows contributed to the endangerment and affect the 
recovery of the endangered fish species. To achieve recovery, the 
multifaceted Program includes:
        <bullet>  provision of water for fish habitat,
        <bullet>  habitat development (fish screens, fish passages, 
        braided reaches),
        <bullet>  research and monitoring,
        <bullet>  stocking of endangered fish,
        <bullet>  controlling non-native fish species, and
        <bullet>  water quality protection.
    The San Juan Program also includes information/education and 
program management components.
    Some 180 miles of critical habitat are now accessible to the 
endangered fish and other native species due to fish passages. 
Hatcheries are producing genetically diverse Colorado pikeminnow and 
razorback suckers for stocking to restore these species. The impacts of 
introduced non-native species are being reduced. Research and 
monitoring continue to evaluate the populations, impacts of recovery 
actions on those populations, and the need for scientifically based 
adaptive management. When the San Juan Program was initiated, there 
were an estimated 20 to 60 Colorado pikeminnow and virtually no 
razorback sucker in the San Juan River. The numbers of Colorado 
pikeminnow and razorback sucker, once almost gone in the basin, have 
dramatically increased as shown in the graphs below.
[GRAPHIC] [TIFF OMITTED] T5009.002

[GRAPHIC] [TIFF OMITTED] T5009.003


    Razorback sucker and Colorado pikeminnow adult and sub-adult 
numbers continue to increase in the San Juan River, showing that the 
adult fish are surviving in the system. Both species are also spawning 
as evidenced by constant larval fish captures. Juvenile razorback 
sucker have been captured indicating that larval fish are surviving.

END DATES FOR RECOVERY PROGRAMS
    Recovery of the listed species is the goal of the San Juan Program. 
Recovery provides a defined end point for the Program. Recovery is 
dependent on the status of the species in both the Upper Colorado and 
San Juan river basins. The projected delist date for the Colorado 
pikeminnow is 2020. For the razorback sucker, it is 2023. Therefore, 
the projected end date for the San Juan Program is 2023. Following 
delisting, the Federal government, the states and possibly other 
parties will enter into agreements to ensure that conditions resulting 
in delisting are maintained so that the species don't become listed 
again.

RECOVERY PROGRAMS AUTHORIZING LEGISLATION--P.L. 106-392
    P.L. 106-392 was signed into law on October 30, 2000. The law 
authorizes the Bureau of Reclamation to provide cost sharing of capital 
construction and annual operations for both the Upper Colorado and San 
Juan River endangered fish recovery programs. The law recognizes 
significant and specific cost sharing contributions to the programs by 
the States of Colorado, Wyoming, Utah, and New Mexico, power customers, 
and water users for these purposes.
    P.L. 106-392 has been amended three times with strong bi-partisan 
support. P.L. 107-375 extended the period for capital construction to 
2008 for both programs. P.L. 109-183 extended the period for 
construction of capital projects for both programs through FY 2010, 
authorized an additional $15 million in capital expenditures for the 
Upper Colorado River Recovery Program, and recognized an additional $11 
million in non-federal cost share contributions. P.L. 111-11 provided 
an additional $27 million in federal authority, recognized an 
additional $56 million in non-federal contributions, and extended the 
funding authority to FY 2023, the expected date for recovery of the 
four endangered fish species.

H.R. 6060 Amendments Regarding Authorization of Continued Annual Base 
        Funding from Power Revenues
    Annual base funds from power revenues contribute significantly to 
the successful implementation of recovery actions by both recovery 
programs, including instream flow identification, evaluation, and 
protection; habitat restoration and maintenance; management of 
nonnative fish impacts; endangered fish propagation and stocking; 
research, monitoring, and data management; public information and 
involvement; and program management. Subsequent to passage of P.L. 106-
392, $46,465,562 in power revenue base funds have been expended or 
obligated by the Upper Colorado Recovery Program, and $22,269,167 by 
the San Juan Recovery Program (2001-2012). The U.S. Fish and Wildlife 
Service, the four participating states, American Indian Tribes, and 
water users also provide additional annual funding and in-kind 
contributions for these activities.
    The authorization for use of power revenues for annual base funding 
of recovery program actions, other than for operation and maintenance 
of capital projects and monitoring, ceased as of fiscal year 2011.
    The approximate fiscal impacts of reductions in annual base funding 
(estimates in fiscal year 2008 dollars) after fiscal year 2011 without 
reauthorization are summarized as follows:

[GRAPHIC] [TIFF OMITTED] T5009.004


    The fiscal impacts are based on 2011-2011 expenditures by the 
two recovery programs. Without reauthorization, annual base funding 
from power revenues for nonnative fish management, research, public 
information and involvement, and program management would be eliminated 
from both recovery programs. This would delay and significantly impede 
the recovery programs' achievements in restoring populations of the 
endangered fishes. As a result, ESA compliance provided by recovery 
program actions for more than 2,300 water projects, as well as future 
projects, would not likely continue. ESA compliance depends not only on 
implementing recovery actions, but is ultimately and directly linked to 
long-term improvement in the status of fish populations.
Continuation of Current Levels of Annual Funding from Other Sources
    The language in the existing legislation that base funding and 
depletion charges previously agreed upon will be retained: ``Nothing in 
this Act shall otherwise modify or amend existing agreements among 
participants regarding base funding and depletion charges for the 
Recovery Implementation Programs.'' This provides that annual and in-
kind contributions by the U.S. Fish and Wildlife Service, the four 
participating States, American Indian Tribes, and water users 
identified in the original agreements will continue.

RECOMMENDATION REGARDING BASE FUNDING
    P.L. 106-392 should be amended to allow continued use of power 
revenues through 2019 for annual base funding of all activities as 
originally authorized and which are necessary to achieve recovery. The 
expected date of recovery of the razorback sucker and bonytail is 2023. 
H.R. 6060 implements these recommendations. I recommend that Congress 
pass amendments to insure continued base funding at current levels. 
H.R. 6060 accomplishes this.
    I appreciate the opportunity to provide this testimony to the Water 
and Power Subcommittee.
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony.
    Our final witness is Mr. John Shields, the Interstate 
Streams Engineer for the Wyoming State Engineer's Office from 
Cheyenne, Wyoming to testify. Welcome to the Committee.

  STATEMENT OF JOHN W. SHIELDS, INTERSTATE STREAMS ENGINEER, 
       WYOMING STATE ENGINEER'S OFFICE, CHEYENNE, WYOMING

    Mr. Shields. Thank you. Thank you, Chairman McClintock, 
Ranking Member Napolitano, and members of the Subcommittee. As 
the Chairman indicated, my name is John Shields. I work for the 
Wyoming State Engineer's office. I have represented Wyoming on 
the management committee of the Upper Colorado River Endangered 
Fish Recovery Program since the program's initiation.
    Wyoming participated in the negotiation of the Upper 
Colorado Program, and has participated in implementing it since 
it got underway in 1988. I am very pleased to testify in 
support of H.R. 6060, the Endangered Fish Programs Recovery 
Extension Act of 2012 [sic].
    H.R. 6060 addresses the needs of both the Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program. Extension of authority 
to continue all use of Colorado River Storage Project 
hydropower revenues for all annual base funding purposes is 
critical to the ability of these programs to realize their 
goals to recover the four endangered fish species.
    Absent reauthorization, we foresee significant issues 
arising with Endangered Species Act compliance for the more 
than 2,300 water projects relying on these programs. Failure to 
provide full annual base funding would cripple the programs. 
The programs face losing about $3 million in funding used for 
critically important non-native fish management and control, 
scientific research, administrative program management, and 
public information activities, as the other witnesses have 
described to you today. That $3 million amount is more than 40 
percent of the 2 programs' total annual base funding.
    Elimination of these recovery activities will impede and 
significantly delay the program's ability to restore the four 
endangered fish species to self-sustaining population levels, 
which is the all-important benchmark to achieve recovery of the 
fish. These outcomes are unacceptable to all of the recovery 
program's participants. The programs are using innovative, 
cost-effective measures to recover the fish, while water 
development and management activities proceed in compliance 
with State laws, interstate compacts, and the Federal 
Endangered Species Act.
    The programs have recovery goals containing objective, 
measurable criteria for downlisting and delisting the species, 
including numeric population goals, and site-specific 
management actions necessary to minimize threats. The recovery 
goals allow the programs to monitor progress toward achieving 
recovery, to assess the effectiveness of management actions, 
and to adjust recovery efforts through adaptive management.
    Section 4 of the ESA requires status reviews of each listed 
species' progress toward recovery each 5 years. The U.S. Fish 
and Wildlife Service's current five-year reviews include 
timelines projecting recovery of the four fish species will 
occur by the end of 2023, at which time the programs will end. 
The programs have been designed to end when the four fish 
species have been recovered. Recovery of the endangered fish 
will achieve the ultimate goal of the ESA. Recovery provides 
the greatest regulatory certainty for Federal and non-Federal 
water development and management activities.
    H.R. 6060 should be enacted into law. Enactment will allow 
the two recovery programs to continue to use CRSP hydropower 
revenues for all annual base funding activities through 2019 at 
currently authorized levels. All of the ongoing annual base 
funding activities are critical to these programs, 
accomplishing the primary goal of recovering the four 
endangered fish species by 2023.
    I greatly appreciate the opportunity to provide this 
testimony supporting the enactment of H.R. 6060, and will be 
happy to answer any questions.
    [The prepared statement of Mr. Shields follows:]

      Statement of John W. Shields, Interstate Streams Engineer, 
                    Wyoming State Engineer's Office

    Chairman McClintock, Ranking Member Napolitano, and Members of the 
Subcommittee, my name is John Shields. I am the Interstate Streams 
Engineer for the Wyoming State Engineer's Office in Cheyenne, Wyoming. 
I represent Wyoming on the Management Committee of the Upper Colorado 
Endangered Fish Recovery Program. That committee reports to the 
Program's governing committee. Wyoming participated in negotiation of 
the Program and has participated in implementation of the Upper 
Colorado River Endangered Fish Recovery Program since its inception in 
1988. I am here to testify in support of H.R. 6060, the Endangered Fish 
Recovery Programs Act of 2012, a bill to amend Public Law 106-392 to 
maintain annual base funding for the Upper Colorado and San Juan fish 
recovery programs through fiscal year 2019.
    H.R. 6060 addresses the needs of both the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program (Programs). Extension of the authority to 
continue use of Colorado River Storage Project (CRSP) hydropower 
revenues is critical to the ability of these Programs to realize their 
goals. Absent such reauthorization, the Programs face losing more than 
$3 million in annual base funding (more than 40 percent of the annual 
total) used for critically important nonnative fish management and 
control, scientific research, administration/program management and 
public information activities. As a result, the Programs' ability to 
restore the four endangered fish species to self-sustaining population 
levels, which is the all-important benchmark to achieve recovery of the 
fish would be both impeded and significantly delayed. In turn, we 
foresee that Endangered Species Act compliance being provided for water 
projects across the Upper Colorado and San Juan river basins would be 
impacted. Both outcomes are unacceptable to all of the recovery 
programs' participants.

Upper Colorado And San Juan River Basin Recovery Programs
    The Upper Colorado River Endangered Fish Recovery Program and the 
San Juan River Basin Recovery Implementation Program are using 
innovative, cost-effective measures to recover four species of 
endangered Colorado River fishes. At the same time, water and 
hydroelectric power resources are being managed within state and 
federal laws and tribal rights to meet the needs of people in growing 
western communities.
    The Programs have the goals of recovering the four fish species in 
the Upper Colorado River basin while water development and management 
activities proceed in compliance with state laws, interstate compacts, 
and the federal Endangered Species Act (ESA).
    These Programs have recovery goals that provide objective, 
measurable criteria for downlisting and delisting the species, 
including numeric population goals and a set of specific recovery 
activities. The recovery goals allow the Programs to monitor progress 
towards achieving recovery, to assess the effectiveness of management 
actions, and to adjust recovery efforts through adaptive management. 
The U.S. Fish and Wildlife Service (USFWS) is required, pursuant to 
Section 4 of the ESA, to provide a status review of each listed 
species' progress towards recovery each five years. The Service has 
projected recovery of the four fish species will occur by the end of 
2023, at which time the Programs will end. These timelines to achieve 
recovery are found in the recently published five-year reviews for the 
Colorado pikeminnow and humpback chub and the in-draft species' status 
reviews for the bonytail and razorback sucker. The recovery programs 
will end when the four species of endangered fish have been recovered.
    The Programs have substantial grassroots support among their 
participants, which include the four Upper Basin states (Colorado, New 
Mexico, Utah and Wyoming), American Indian tribes (Navajo Nation, 
Jicarilla Apache Nation, Southern Ute Tribe and Ute Mountain Tribe), 
water users, power customers and environmental organizations. Five 
federal agencies (USFWS, Bureau of Reclamation, National Park Service, 
and Western Area Power Administration and Bureau of Indian Affairs) 
participate in the Programs. These diverse interests continue to 
demonstrate that working cooperatively produces far greater results 
than independent efforts.
    The recovery programs are currently providing ESA compliance for 
2,320 federal, tribal, and nonfederal water projects, including every 
Bureau of Reclamation project in the Upper Basin upstream of Lake 
Powell, water projects that meet the United States' trust obligations 
to American Indian tribes, and literally hundreds of non-federal water 
projects providing water for municipal, irrigation, industrial, and 
recreational uses. No lawsuits have been filed as a result of ESA 
compliance under the Programs. The programs use adaptive management to 
evaluate and revise management actions as new information becomes 
available.

Public Law 106-392 and its Subsequent Amendments
    P.L. 106-392, signed into law on October 30, 2000, authorizes the 
Bureau of Reclamation to provide cost-sharing for capital construction 
and fund annual operations for these two endangered fish recovery 
Programs. The law recognizes significant and specific cost-sharing 
contributions to the Programs by the States of Colorado, Wyoming, Utah, 
and New Mexico, power customers, and water users for these purposes.
    P.L. 106-392 has been amended three times with substantial bi-
partisan support in both the House of Representatives and United States 
Senate. P.L. 107-375 extended the period for capital construction to 
2008 for both Programs. P.L. 109-183 extended the period for 
construction of capital projects for the Programs through FY 2010, 
authorized an additional $15 million in capital expenditures for the 
Upper Colorado Program, and recognized an additional $11 million in 
non-federal cost-share contributions. P.L. 111-11 provided an 
additional $27 million in authority for federal funding of capital 
projects, recognized an additional $56 million in non-federal 
contributions, and extended the authority to expend funding for capital 
projects through the end of FY 2023, which is the expected recovery 
date for the endangered fish species.
    Capital project funds have been used to construct hatchery 
facilities, fish passages and screens, complete water acquisition 
projects and restore floodplain habitat across the San Juan and Upper 
Colorado basins. P.L. 106-392 provided for three sources of capital 
funds within these programs: federal appropriations (provided within 
Reclamation's ``Endangered Species Recovery Implementation Program'' 
budget line-item) along with $17 million of CRSP power revenues from 
CRSP power users and $17 million provided by the States of Colorado, 
New Mexico, Utah and Wyoming.
    P.L. 106-392 expressly authorized the use of a maximum of $6 
million per year (indexed for inflation) of CRSP hydropower revenues to 
support the annual base funding needs of the Programs through the end 
of fiscal year 2011. As noted, operation and maintenance of the 
hatcheries, fish passages, fish screens, and flooded bottomland 
facilities, monitoring of the four endangered fish populations, and 
nonnative fish management, scientific research, administration/program 
management and public information activities are all conducted with 
annual base funding.

H.R. 6060 Will Extend Authority to Use Power Revenues For Annual Base 
        Funding
    Annual base funding activities contribute significantly to 
successfully completing recovery actions specified in the species' 
recovery goals, including instream flow identification, evaluation, and 
protection; habitat restoration and maintenance; management of 
nonnative fish impacts; endangered fish propagation and stocking; 
scientific research, monitoring, and data management; public 
information and involvement; and administrative program management. The 
USFWS, the four participating states, the four American Indian Tribes, 
and water users also contribute--and will continue to provide--
additional annual funding and in-kind contributions for these 
activities. The cooperative agreements for both programs reflect that 
all participants have committed to the conduct of these Programs 
through the end of FY 2023.
    The extension of authority to the end of fiscal year 2019 contained 
in H.R. 6060 complies with the current House of Representatives' 
protocol limiting authorizations to 7 years after the year of 
enactment. The recovery programs' participants anticipate the need to 
seek an additional extension of authority prior to the end of fiscal 
year 2019 based on current projections that each of the four species of 
endangered fish will not be delisted (e.g., recovered) until 2023.
    Importantly, H.R. 6060 will extend the authority to use CRSP 
hydropower revenues through fiscal year 2019 at currently authorized 
levels. At that time, authority to use annual base funding for 
activities other than operation and maintenance of capital projects and 
monitoring will terminate without continuing authorization by the 
Congress.

Recommendation: Enact H.R. 6060
    H.R. 6060 should be enacted into law. Enactment will allow the two 
recovery programs to continue to use CRSP hydropower revenues for all 
annual base funding activities through 2019. All of the ongoing annual 
base funding activities are critical to these Programs accomplishing 
their primary goal of recovering the four endangered fish species by 
2023.
    I greatly appreciate the opportunity to submit testimony supporting 
the enactment of H.R. 6060.
                                 ______
                                 
    Mr. McClintock. Thank you very much for your testimony. We 
will now begin Committee questions, also under the 5-minute 
rule. And I would like to begin with Mr. Raley.
    What would happen if this bill was not passed?
    Mr. Raley. I believe, Mr. Chairman, that we would be 
plunged into great uncertainty. The original legislation 
contemplates reauthorization. And if it is not reauthorized, 
from the perspective of the people that I speak for, the water 
supply for 4 million and close to a million acres of land will 
be put in jeopardy.
    Mr. McClintock. Why would it be put in jeopardy?
    Mr. Raley. Without a successful program, a robust program, 
there will be the opportunity for litigation. And, as I have 
learned in other basins, if there is the opportunity, if there 
is a weakness or an opening, there are entities that will 
litigate simply to bring programs like this to a halt.
    Mr. McClintock. But we just heard that the ESA works great. 
Look at this project.
    Mr. Raley. This program is based on some unique 
circumstances. And, unfortunately, I don't believe it can be 
replicated everywhere.
    Mr. McClintock. Are there lessons we could draw from the 
success of this project to modify the ESA in a manner that 
would reduce litigation as this agreement obviously has in this 
case?
    Mr. Raley. Absolutely, Mr. Chairman.
    Mr. McClintock. Could you give us some examples?
    Mr. Raley. Yes. I think that the first lesson is it 
requires--and I am not pointing fingers at anyone in 
particular--it requires a circumstance where all the players 
have an incentive to sit down and work out something that is 
workable. And when one of the entities--when one player has the 
ability to litigate and litigate on pretty much an infinite 
basis, they lose the incentive to sit down and work out 
something that is reasonable.
    Mr. McClintock. Thank you. Mr. Shields, you have had a lot 
of experience with this. What lessons can we draw, from your 
perspective?
    Mr. Shields. Mr. Chairman, I think that one of the greatest 
strengths of this program is that we have established checks 
and balances within the governance structures of both the Upper 
Colorado and the San Juan Programs. Through a system of checks 
and balances, there is a necessity to work toward compromise. 
And I would point out, with respect to the Upper Colorado 
Program, we actually operate on a unanimous consensus basis 
within the management committee's activities. And in making 
decisions.
    Now, that is inherently inefficient, in the sense that the 
majority can't rule. But it forces everyone to compromise, to 
work toward the middle and find that common ground that 
Representative Gardner mentioned----
    Mr. McClintock. One of the provisions that are the result 
of that compromise that struck my attention, and that we have 
been trying to get, frankly, in other regions without result, 
and that is simply counting hatchery fish. What role do 
hatcheries play in recovering endangered fish on the Upper 
Colorado and San Juan River Basins?
    Mr. Shields. Yes, sir. May I please answer that question? 
Seven hatchery facilities produce Bonytail, Razorback Sucker, 
and Colorado Pikeminnow necessary to meet the annual and long-
range stocking targets of these two recovery programs. Brood 
stock and propagation of young are managed to maximize the 
genetic diversity of the stock fish to increase the likelihood 
that they are going to survive in the wild.
    Stock fish count toward recovery goal criteria when they 
are reproducing in the wild, and their offspring are surviving 
to adulthood.
    Mr. McClintock. Well, how is it that you are able to get a 
compromise on that matter in this project, but that compromise 
has evaded us here in Congress? I have cited one case--there 
are many--where hatchery fish are deliberately not counted in 
the population counts for ESA purposes. And, in fact, by 
ignoring those hatchery fish, they then use that as an excuse 
to, in the case of Klamath, tear down perfectly good dams, in 
the case of the Central Valley, to dump billions of gallons of 
water into the Pacific Ocean. It seems to me that is a very 
common-sense approach, counting the damn hatchery fish.
    Mr. Shields. I would agree with you, sir. I think the 
distinction that is made, though, is that the fish that have 
been stocked have to start to reproduce before they are counted 
in that population number. And I believe that the circumstances 
are such with these ocean-going fish, that that is much more 
difficult to do. It is a very good question that you ask, and I 
would be happy to augment my answer in writing, sir.
    Mr. McClintock. Great. Well, thank you very much. That 
concludes my questions. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. Mr. Raley, I 
couldn't agree with you more about cooperation versus 
litigation. It gets the job done.
    And a question to all of you, and it is in the back of my 
mind. I kind of mentioned it to Mr. Barton, is the ability--
would it help to be able to extend it, the deadline, from 2019 
to 2023?
    Mr. Payne. I am sorry. From Reclamation's standpoint, yes, 
it would, because we feel that the 2023 deadline allows us to 
fully accomplish our goal of getting these four species out 
of----
    Mrs. Napolitano. Anybody else?
    Mr. Raley. I would add that we welcome Congress's attention 
at any time. So a shorter period, it is entirely acceptable.
    Mrs. Napolitano. But would it be helpful to be able to 
extend it to the end of the recovery, if you will?
    Mr. Raley. Congresswoman, perhaps. But not if the extension 
removed the oversight of Congress. There is great value in this 
program coming back to Congress periodically.
    Mrs. Napolitano. Well, assuming, though, that the bill 
passes and there is this oversight, you are only going to have 
the 2019 deadline. Is it helpful to move to the 2023 deadline? 
Would it be beneficial to the parties?
    [No response.]
    Mrs. Napolitano. You agree now that 2019 is a good 
deadline. Would it be helpful to extend it to the full 2023?
    Mr. Raley. I will be very blunt, Congresswoman. The ability 
to have Congress check in 2019 that the Service and Reclamation 
are still committed to recovery by a date certain, so that we 
don't reach that point and go, ``Oh, the goal post has moved,'' 
the ability to have that check in 2019 will be very helpful.
    Mrs. Napolitano. Then would it be helpful if there were 
language inserted in an amendment, if you will, to ensure that 
in 2019 there is a follow-up to have a measurement at that 
point, but extend it to 2023?
    Mr. Raley. You know, I would want to look at the language.
    Mrs. Napolitano. Anybody else?
    Mr. Shields. Congresswoman Napolitano, I will not disagree 
with anything that Bennett Raley has said to you. Previous 
versions of the legislation that is before you today were 
drafted with 2023 as the date.
    Mrs. Napolitano. Correct.
    Mr. Shields. An amendment that would change that would not 
be in conformance with the Majority leader's protocol. However, 
if your amendment was to leave in place the requirement that 
the Secretary of the Interior provide a report to the 
authorizing Committees on both the House and Senate side at the 
end of Fiscal Year 2018, I would see no harm in that amendment.
    Mrs. Napolitano. Well, I will suggest it to the author of 
this bill, which--I think he is ready to at least sit down and 
talk about it. Anybody else?
    Mr. Kirkpatrick. Yes, I would concur with what Mr. Shields 
said, that as long as we have the oversight, 2023, 
biologically, would be very helpful. We would know when we are 
trying to seek recovery. However, we do recognize the rules 
that you operate under.
    Mrs. Napolitano. Thank you. Mr. Gray Payne, the program is 
often talked about from strictly the species restoration. And 
what is Reclamation's priority in participating in these 
programs?
    Mr. Payne. Well, our first priority is definitely for the 
delivery of water and power to our customers. That is priority 
one for us.
    Mrs. Napolitano. And does Reclamation's participation in 
these programs allow you to meet the core goals and overall 
mission?
    Mr. Payne. Well, as I said earlier, our core mission is 
providing water and power. And in order to do that, both the 
San Juan RRP and the UC RRP provide our ESA compliance, which 
then allows the 2,300 projects along the Colorado River Storage 
Project to meet their ESA compliance.
    Mrs. Napolitano. Thank you. Mr. Garlick, what would be the 
impact of power production in the region, if the recovery 
programs were not in place?
    Mr. Garlick. Well, if there would be an impact on the power 
production if there wasn't this recovery program in place. 
Obviously, there has been some reduction in the operations of 
both the Flaming Gorge Dam and the Aspinall unit in power 
production. And if this recovery plan doesn't go forward, we 
would expect further reductions, which would be impacts to this 
great renewable hydroelectric resource, and would be replaced 
with market-priced power from fossil fuels.
    Mrs. Napolitano. Thank you. Thank you, Mr. Chairman.
    Mr. McClintock. Thank you. And, Mr. Tipton?
    Mr. Tipton. Thank you, Mr. Chairman. Mr. Raley and Mr. 
Garlick, you might want to comment on this, as well. Both of 
you represent water and power users who have a direct interest 
in avoiding ESA jeopardy. Do these programs in the bill adhere 
to the beneficiaries pay principle, where water and power users 
pay their way?
    Mr. Raley. For power? I am sorry. For water? Yes, sir.
    Mr. Tipton. Yes.
    Mr. Raley. My clients are spending tens of millions of 
dollars to provide resources to the program.
    Mr. Tipton. And then my understanding is with this bill we 
are also going to see that this is going to actually provide $3 
million, an additional $3 million for construction? Is that 
correct? Did you follow that in the bill?
    Mr. Raley. I apologize, Congressman. I haven't focused on 
that portion----
    Mr. Tipton. OK, OK. Well, that is fine. Would it be fair to 
say, Mr. Raley and Mr. Garlick--and, Mr. Shields, you might 
want to comment on this--that if this bill goes through, or 
doesn't go through, that water supplied in the State of 
Colorado, which I represent, it will impact about 4 million 
people, 900,000 acre-feet of irrigated land, and 80 percent of 
Colorado's economy, and curtail some power production, and that 
is the importance of this legislation?
    Mr. Raley. Congressman, actually, those numbers are only a 
part. Those numbers are from the Eastern Slope.
    Mr. Tipton. Right.
    Mr. Raley. And when you add together the beneficiaries on 
the Western Slope, the numbers would be simply greater.
    Mr. Tipton. Right.
    Mr. Garlick. And I would simply add your reference to the 
revenues from the power users contribute to about $3.5 million 
annually in this program. And so, without that, we would not be 
ESA compliant, and have major impacts to the production.
    Mr. Tipton. You know, it seems we get a lot of debate on 
ESA. And I think everybody is in concert. We want to make sure 
that we are getting species recovery.
    But, Mr. Raley, would you maybe like to expand maybe a 
little more in regards to some of the moves that we need to 
have, and perhaps ESA reform, to be able to deal with some of 
the challenges of achieving the goal, still delivering the 
power that the Bureau of Reclamation is charged with, as well?
    Mr. Raley. Yes, sir. I would start with the fact that the 
ESA itself doesn't contemplate programs like this. These 
programs have been workarounds that have been put in place over 
time, sometimes successfully, sometimes not. So a cohesive 
authorization for programs to function, and a requirement that 
the agencies participate in those programs would be of enormous 
value. That would be the first place to start.
    Then one could move to the section 7 consultation itself. 
And there are any number of suggestions that have been tossed 
around in Congress for improving the efficiency of section 7. 
And then, because I want to keep my answer short, reduction in 
litigation. Litigation is good for lawyers. And putting more 
dollars into the species recovery and fewer opportunities for 
litigation would be of great value.
    Mr. Tipton. I appreciate that. Mr. Shields, the bill that 
we are hearing today reduces overhead so that more funding is 
dedicated actually to fish recovery and eventually delisting. 
Yet Mr. Payne's testimony indicates opposition to overhead 
reductions, specifically a reduction in something called 
administrative cost fee. Do you have any comment on that?
    Mr. Shields. Representative Tipton, the Subcommittee, in 
drafting the bill, has exercised professional judgment as to 
what is required to get this legislation--and primarily to get 
the extension of authority the sufficient votes needed so that 
it will pass the House of Representatives. To make it out of 
this Committee, first of all.
    We have had an arrangement in place for the Upper Colorado 
River Recovery Program for over 15 years that has put--that has 
cut the overhead rate charged by the Fish and Wildlife Service 
in half. If this Subcommittee believes that the overhead should 
be further reduced to 3 percent, we are willing to accept that.
    Mr. Tipton. Well, would I be correct in saying that such 
costs are 11 percent of transfers from the Upper Colorado 
Program and 22 percent from the San Juan Program?
    Mr. Shields. The San Juan Program recently, through Region 
2's concurrence, has had their overhead reduced to 15 percent, 
as well. But, as you know, this will make the overhead for both 
of these programs a matter of law. This is a global issue with 
respect to other types of conservation and recovery programs 
across the Western United States. Other programs will continue 
to charge at the standard indirect cost recovery rate, which I 
believe, sir, is currently 22 percent.
    Mr. Tipton. I yield back, Mr. Chairman.
    Mr. McClintock. We have had a request for another round of 
questions. So let me follow up on Mr. Tipton's point.
    Mr. Shields, this basically is an ATM fee, is it not? It is 
a fee for transferring funds. There is not a lot of 
administrative work involved, is there?
    Mr. Shields. The indirect cost recovery rate that is 
assessed yields money that is transferred by the Fish and 
Wildlife Service to their Washington office and to their 
regional office. I am not knowledgeable about the particulars 
of what they use those funds for.
    Mr. McClintock. What would the justification be for 22 
percent overhead for a simple funds transfer?
    Mr. Shields. The----
    Mr. McClintock. I mean if a bank charged that for an ATM 
withdrawal, my suspicion is we would have a revolution on our 
hands.
    Mr. Shields. You are correct, sir. But I am simply not 
qualified to speak on behalf of the Fish and Wildlife Service 
with regard to that amount of overhead, and the uses to which 
it is applied.
    Mr. McClintock. Maybe Mr.----
    Mr. Shields. I would be happy to follow up. I have 
submitted information in the past to the Subcommittee from the 
Fish and Wildlife Service, and I would be happy to submit 
additional information, if that would be useful, sir.
    Mr. McClintock. Mr. Payne, can you offer any enlightenment 
on this subject?
    Mr. Payne. Well, sir, I don't want to speak for the Fish 
and Wildlife Service, but I will say that normally overhead 
costs are--of course they are indirect charges for support 
functions back at headquarters, as well----
    Mr. McClintock. Yes, but these are funds transfers. What 
support functions could possibly justify a 22 percent ATM fee?
    Mr. Shields. I completely understand where you are coming 
from. I don't know where Fish comes up with their numbers. I 
haven't seen their numbers.
    Mr. McClintock. Right. Thank you. That does it for me. Mrs. 
Napolitano.
    Mrs. Napolitano. Well, thank you. Just a very quick one. 
And I understand, Mr. Raley, you said that this was touted as a 
model, yet the circumstances are quite different. But the 
cooperation issue is vital in many of these project agreements 
that are working collaboratively.
    Is there any message that we in Congress need to take from 
everybody coming to the table, the Tribes, the government, the 
water entities, all of you? The whole list of them is 
impressive. How did you do that? And how can others emulate at 
least beginning to bring everybody, as you say, to the table?
    Mr. Raley. Congresswoman, I would start with Congress fully 
explaining how recovery programs are supposed to work, and to 
authorize them across the board, because it is not there. And 
we end up with workarounds. And in other basins, it doesn't 
work. And I think that Congress paying attention to it and 
forcing programs like this would be of great value.
    Mrs. Napolitano. Anyone else?
    Mr. Kirkpatrick. Ranking Member Napolitano, I will just 
give the example of how we in the San Juan Basin came together. 
We were working on the development of a water project known as 
the Animas-La Plata Project. Certain parties were using the 
Endangered Species Act to tort the development of that project 
to meet the settlement requirements of the two Ute Tribes in 
Colorado, primarily, and water supplies for New Mexico, 
including the Navajo Nation. And we were somewhat forced by the 
circumstances of the Endangered Species Act to find solutions.
    We looked to the north, looked to the Upper Basin Program, 
and to the best of ability, developed the same with the 
challenge of working together. And to say that was a pretty 
process would not be truthful. It was very tense, difficult. 
But we decided it was far better to find a solution than it was 
to go to court with little chance of success. We had just 
followed some other things that we knew about.
    And it has to be a common goal to resolve an issue. When we 
began this project, we felt the ESA Act was a problem. We found 
a solution. And the solution has certainly worked well for us 
in our basin. And, as I said, we will see recovery by 2023. And 
we have never had a challenge--we are about to conclude the 
Navajo settlement, the largest Indian rights settlement in the 
United States, as we sit here today. We will be finished by 
December of next year with that. We have the two Utes settled. 
The Hickory Apache, as well, is settled. So we have settled the 
four entities.
    I gave to your staffers some maps. And if you look at the 
San Juan Basin you will understand why the Native American 
involvement is so critical. All right? Thank you. I hope that 
helped.
    Mrs. Napolitano. Yes, it does. And one of the reasons is I 
have been involved with the removal of the uranium tailings in 
Moab for years, because the Colorado River provides Southern 
California with a third of our potable water. So getting some 
of these projects moving and working together cooperatively has 
always been something that I have advocated, and hope to see 
more of these in this day and age where we utilize more 
litigation than we use cooperation. So thank you for your 
answer.
    With that, Mr. Chairman, I yield back.
    Mr. McClintock. Mr. Lujan?
    Mr. Lujan. Mr. Chairman, thank you very much. And I want to 
thank our witnesses who are with us today, especially our 
executive director, Mr. Kirkpatrick, from the San Juan Water 
Commission. It is always an honor to see you, sir, someone that 
is relentless when it comes to his advocacy for the strength of 
our communities, but also for water. It is also an honor to be 
in front of you, sir.
    With that being said, Mr. Kirkpatrick, I know that you have 
some concerns about Reclamation's assertion of the ability to 
provide hydropower revenues under their current authority. Can 
you tell us a little bit more about why that is a concern?
    Mr. Kirkpatrick. Congressman Lujan, it is a pleasure to 
speak to you. And responding to that is while we have been 
orally informed that the Bureau can, in fact, allocate these 
funds, a little bit in the history in the past is before the 
San Juan program, actually, they were providing this funding. 
We did, in fact, change administrations, and then there was 
some concern that the numbers of dollars we were spending were 
getting too large. And, therefore, they needed congressional 
authorization.
    And this program requires certainty through 2023. And 
without that certainty, we could still fail. I know the 
question was asked earlier why we need this legislation passed. 
Having worked on this for those 23 years that I spoke of 
earlier, I recognize that we need that congressional 
authorization.
    While we do trust and respect the managerial staff of the 
Bureau of Reclamation, we are not certain that we will have 
this money. And any delay--let us be candid; I have been 
working on it for 23 years, we have been working on projects as 
long as--since 1908, when the Animas-La Plata started, so we 
understand how long these projects can take. We don't want a 
reversal. A year or two of loss, just like the droughts have 
done to us, have slowed us down. We don't need a drought of 
money any more than we need a drought of water in the river.
    Mr. Lujan. I appreciate that, Mr. Kirkpatrick. And the next 
question leads a little bit from there, as well. Do you have 
any concerns that the current legislation has changed the 
authorization of base funding from power revenues from 2023 to 
2019?
    Mr. Kirkpatrick. That question was asked earlier. And, yes, 
we have some concerns because of that certainty issue.
    I also concur with the other witnesses here that we do need 
that check and balance from Congress periodically, and with 
language that makes clear that will occur. I believe that 2023 
would be an adequate date. In fact, I am aware that the similar 
legislation in the Senate will have 2023, as we sit here today.
    Mr. Lujan. I appreciate that. And, Mr. Kirkpatrick, I 
appreciate the maps, as well, that you have put together 
pertaining to the importance of these settlements, namely with 
the Hickory Apache Nation and the Navajo Nation. But some 
things are worth repeating. Can you tell us why the completion 
and success of these projects is important to the Tribal 
communities of the Navajo Nation and the Hickory Apache Nation 
and the integrity of water settlements involving Tribes?
    Mr. Kirkpatrick. Those settlements are the final tribal 
settlements within the San Juan Basin. And they will give 
surety not only to the Tribes that they will have water 
supplies adequate for their current and future requirements, 
but they equally assure that the existing uses by non-Indians 
and any future development of any water by the non-Tribal 
parties will also have surety of their water supplies.
    One who deals in water in the West understands that Tribes 
have a reserve water right that is superior to all other water 
rights. In other words, they are normally earlier. And if you 
understand the priority system, that is a very critical nature. 
In the San Juan Basin--actually, the Navajo Nation's is the 
second most senior water right in the San Juan Basin. The one 
that is most senior, which is the one we don't hear often 
about, is the Mountain Ute Tribe, which has not settled its 
rights in New Mexico. They have settled them in Colorado.
    So, it is very important to everyone's certainty and the 
economic engine that I am sure, Congressman Lujan, you 
understand what San Juan Basin has been for New Mexico, that we 
do have this certainty of water supply.
    Mr. Lujan. I appreciate that, Mr. Kirkpatrick. And, Mr. 
Chairman, we appreciate you bringing this hearing, as well, and 
the work of Mr. Bishop and that of the Majority and Minority 
staff on this. This is an important issue to many of us, and I 
hope we can get this one done. Thank you, Mr. Chairman.
    Mr. McClintock. Very good. Thank you. I want to thank all 
for their testimony today. I want to apologize again for the 
delay in the hearing, because of the votes on the House Floor.
    We may have members with additional questions for 
witnesses, and we would ask that you respond to those in 
writing. The hearing record will be open for 10 business days 
to receive those responses. And if there is no further 
business, without objection the Subcommittee stands adjourned.
    [Whereupon, at 4:02 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    The documents listed below have been retained in the 
Committee's official files.

        <bullet>  Board of Water Works of Pueblo, Colorado--
        Letter of Support for H.R. 6060
        <bullet>  Central Utah Water Conservancy District--
        Letter of Support for H.R. 6060
        <bullet>  City of Aurora, Colorado--Letter of Support 
        for H.R. 6060
        <bullet>  Colorado Springs Utilities--Letter of Support 
        for H.R. 6060
        <bullet>  Colorado Water Congress--Letter of Support 
        for H.R. 6060
        <bullet>  Denver Water--Letter of Support for H.R. 6060
        <bullet>  Front Range Water Council--Letter of Support 
        for H.R. 6060
        <bullet>  Grand Valley Water Users' Association--Letter 
        of Support for H.R. 6060
        <bullet>  Green River, Rock Springs, Sweetwater 
        County--Letter of Support for H.R. 6060
        <bullet>  Jicarilla Apache Nation--Letter of Support 
        for H.R. 6060
        <bullet>  Northern Colorado Water Conservancy 
        District--Letter of Support for H.R. 6060
        <bullet>  Northern Colorado Water Conservancy District, 
        Municipal Subdistrict--Letter of Support for H.R. 6060
        <bullet>  PNM Resources, Inc.--Letter of Support for 
        H.R. 6060
        <bullet>  San Juan Water Commission--Letter of Support 
        for H.R. 6060
        <bullet>  Southeastern Colorado Water Conservancy 
        District--Letter of Support for H.R. 6060
        <bullet>  Southern Ute Indian Tribe--Letter of Support 
        for H.R. 6060
        <bullet>  Southwestern Water Conservancy District--
        Letter of Support for H.R. 6060
        <bullet>  State of Wyoming--Letter of Support for H.R. 
        6060
        <bullet>  State of Colorado--Letter of Support for H.R. 
        6060
        <bullet>  The Nature Conservancy--Letter of Support for 
        H.R. 6060
        <bullet>  The Uncompahgre Valley Water Users 
        Association--Letter of Support for H.R. 6060
        <bullet>  Tri-County Water Conservancy District--Letter 
        of Support for H.R. 6060
        <bullet>  Upper Gunnison River Water Conservancy 
        District--Letter of Support for H.R. 6060
        <bullet>  Utah Water Users Association--Letter of 
        Support for H.R. 6060
        <bullet>  Western Business Roundtable--Letter of 
        Support for H.R. 6060

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
